SEMIANNUAL
REPORT TO CONGRESS
April 1, 2013–September 30, 2013
SEMIANNUAL
REPORT TO CONGRESS
April 1, 2013–September 30, 2013
                    Message from the
                    Inspector General
                    On behalf of the Office of Inspector General (OIG) of the Board of
                    Governors of the Federal Reserve System (Board) and the
                    Consumer Financial Protection Bureau (CFPB), I am pleased to
                    present our Semiannual Report to Congress, which highlights our
                    accomplishments and ongoing work for the six-month period
                    ending September 30, 2013.
                    In our prior Semiannual Report to Congress, I introduced our new
                    vision, which underpins our strategic plan for 2013–2016:
   Mark Bialek
                    “To be the trusted oversight organization for the Board and the CFPB.”
Inspector General   As we began to implement our strategic plan during this reporting
                    period, we identified the following priorities.
                    We are striving to meet the needs of our stakeholders. Our new
                    organizational framework, implemented at the end of the prior
                    reporting period, enables us to provide more consistent and timely
                    oversight of the Board and the CFPB while remaining sufficiently
                    nimble to respond to changing circumstances. Further, our online
                    Work Plan, which is updated about every two weeks, informs our
                    stakeholders of our completed work, our work in progress, and our
                    planned projects. This Work Plan provides stakeholders with an
                    unparalleled level of transparency and real-time updates of our work.
                    We are focusing our oversight initiatives on alignment with the
                    Board’s and the CFPB’s strategic goals. Examples of our work for
                    the Board include projects on the cost management of the estimated
                    $180 million project to renovate the Martin Building and construct
                    a visitors’ center and conference center, the cost effectiveness and
                    potential operational efficiencies of information technology services
                    across Board divisions, and the economy and efficiency of the
                    operations of the Board’s Law Enforcement Unit.
                    The CFPB is continuing to develop policies, procedures, and other
                    safeguards around its operations. In its strategic plan, the CFPB
                    has specifically indicated that it will focus on working to ensure
                    “effective and efficient management, protection of the CFPB
                    resources, rigorous internal controls, and full compliance with the




                    Semiannual Report to Congress | April 1, 2013–September 30, 2013
law.” Our ongoing audits and evaluations of the CFPB’s Civil
Penalty Fund, supervision program, and hiring process, as well as
its strategy to integrate enforcement attorneys into the examination
process, will provide the CFPB with an objective perspective on
these programs and processes and will offer sound recommendations
for programmatic and operational improvements. In addition, the
CFPB states that it will achieve its mission and vision through data-
driven analysis and innovative use of technology. To that end, we
have undertaken two information technology audits on the CFPB’s
use of cloud computing, as well as the required annual audit of its
information security program, to help the agency ensure that its data
are appropriately protected.
We are conducting audits and evaluations designed to identify
operational and programmatic risks and make recommendations
to reduce those risks. We completed four important projects
during the reporting period relating to internal controls, which
are the first line of defense in safeguarding assets and preventing
and detecting errors and fraud. For the Board, we found that it
could benefit from an agency-wide process for maintaining and
monitoring administrative internal control, and in a separate report,
we found that the Board should strengthen controls over the
handling of the Federal Open Market Committee meeting minutes
to prevent future early releases of this information. For the CFPB,
we audited its purchase card and government travel card programs
and made recommendations to strengthen the internal controls of
those programs. Effective internal controls in these programs will
result in improved stewardship of government resources and better
prevention and detection of fraud or mismanagement.
We are engaging our stakeholders directly and frequently.
OIG officials meet with their Board and CFPB counterparts on
a regular basis to glean their feedback on ongoing and planned
audits, evaluations, and inspections. We have hosted officials
from the Board and the CFPB to discuss with OIG staff the work
they do, areas of risk they foresee, and meaningful oversight we
can provide. Importantly, we reach out to members of Congress
through briefings, correspondence, and other informal channels
to ensure that they are accurately informed about the work we do,
the authorities we have, and the seriousness with which we regard
our oversight responsibilities for our two agencies. Issues we have
discussed with Congress include information technology security,




Office of Inspector General
Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
contract management, internal controls, and bank supervision and
regulation. Additionally, we are active in the Inspector General
community, with our senior leadership holding positions on several
committees of the Council of the Inspectors General on Integrity
and Efficiency.
Our Office of Investigations continues to participate with our
federal law enforcement partners in conducting complex fraud
investigations. Our agents’ participation in these investigations
over the past six months has resulted in multiple criminal
sentencings, indictments, restitution orders, and fines totaling nearly
$342 million. Our investigators are dedicated to the prevention of
waste, fraud, and abuse, and they continue to work closely with our
stakeholders on investigative matters.
I appreciate the continued support we have received from Board
and CFPB senior management as we work toward improving
the effectiveness and efficiency of their programs and operations.
Finally, I would like to thank the OIG staff for implementing our
new vision and for their exemplary work during this reporting
period.
Sincerely,



Mark Bialek
Inspector General
October 31, 2013




Semiannual Report to Congress | April 1, 2013–September 30, 2013
Contents
Highlights	                                                           1
Introduction	                                                         5
Audits, Evaluations, and Inspections	                                 9
     Board of Governors of the Federal Reserve System	               10
     Consumer Financial Protection Bureau	                           34
Failed State Member Bank Reviews	                                    47
     Material Loss Reviews	                                          47
     Nonmaterial Loss Reviews	                                       47
     Follow-Up on Open Recommendations	                              50
Investigations	                                                      51
Hotline	                                                             61
Legal Services	                                                      63
Communications and Coordination	                                     65
     Congressional Coordination and Testimony	                       65
     Council of Inspectors General on Financial Oversight	           65
     Council of the Inspectors General on Integrity and Efficiency
        and Inspector General Community Involvement	                 66
     Financial Regulatory Coordination	                              67
Peer Reviews	                                                        69
 Abbreviations	                                                      71




Semiannual Report to Congress | April 1, 2013–September 30, 2013
Highlights
Consistent with our responsibilities under the Inspector General
Act of 1978, as amended (IG Act), the Office of Inspector General
(OIG) continued to promote the integrity, economy, efficiency,
and effectiveness of the programs and operations of the Board
of Governors of the Federal Reserve System (Board) and the
Consumer Financial Protection Bureau (CFPB). The following are
highlights of our work during this semiannual reporting period.


Investigations
  •	 We opened 11 cases and closed 6.
  •	 We referred 12 matters to the prosecutor.
  •	 We had 11 indictments and were responsible for nearly
     $342 million in criminal fines, restitution, and forfeiture.
Our most significant case is highlighted below.
Sentencing for Former Senior Executives and a Favored Borrower
of the Bank of the Commonwealth. On May 24, 2013, after a
10-week trial, a former vice president and chief lending officer of
the Bank of the Commonwealth, another former vice president, and
a favored borrower who was a commercial real estate developer were
convicted by a federal jury in the Eastern District of Virginia. They
were found guilty of masking nonperforming assets at the Bank of
the Commonwealth, a state member bank, for their own personal
benefit and to the detriment of the bank. This long-running
scheme contributed to the failure of the bank in 2011, costing
the Federal Deposit Insurance Corporation (FDIC) an estimated
$333 million. On September 16, 2013, the former vice president
and chief lending officer was sentenced to 17 years in prison for
conspiracy to commit bank fraud, false entries in bank records,
misapplication of bank funds, and false statement to a financial
institution. The court further ordered the former vice president
and chief lending officer to pay $331.9 million in restitution to the
FDIC and to forfeit $61.6 million in proceeds from the offense.
On September 18, 2013, the commercial real estate developer was
sentenced to 50 months in prison for conspiracy to commit bank




Semiannual Report to Congress | April 1, 2013–September 30, 2013        1
    fraud, bank fraud, false statements to a financial institution, and
    aiding and abetting misapplication of bank funds. Further, the
    court ordered the commercial real estate developer to pay nearly
    $5 million in restitution to the FDIC and to forfeit $11.1 million
    in proceeds from the offense. On September 30, 2013, the other
    former vice president was sentenced to 8 years in prison for
    conspiracy to commit bank fraud, false entries in bank records,
    misapplication of bank funds, and false statement to a financial
    institution. The court further ordered the former vice president
    to pay $2.4 million in restitution to the FDIC and to forfeit
    $4.1 million in proceeds from the offense.


    Audits, Evaluations, and Inspections
       •	 We issued 7 reports on the Board and 3 on the CFPB.
       •	 We have 32 ongoing projects.
    Below are some of the highlights.
    The Board’s Handling of the Federal Open Market Committee
    Meeting Minutes. We evaluated the Board’s processes for
    distributing the approved Federal Open Market Committee
    (FOMC) minutes to Board staff prior to their public release and
    the Board’s management controls to prevent the early distribution
    of those minutes. The Board’s Chairman asked us to initiate this
    audit after an official in the Board’s Congressional Liaison Office
    e-mailed the FOMC meeting minutes to an e-mail distribution
    list on April 9, 2013, one day earlier than the scheduled release
    date. As a result, the Board issued the FOMC minutes at 9:00 a.m.
    on April 10, 2013, rather than the scheduled 2:00 p.m. release
    time. We found that certain Board offices were lacking relevant
    policies and procedures, that access to the FOMC minutes was not
    sufficiently restricted, and that certain staff did not adhere to the
    Board’s Program for Security of FOMC Information. We made four
    recommendations designed to strengthen the Board’s controls over
    the handling of the FOMC minutes. Management concurred with
    the recommendations and has initiated steps to implement them.
    Implementing a Board-Wide Process for Maintaining and
    Monitoring Administrative Internal Control. We found that the
    Board’s processes for maintaining and monitoring administrative




    Office of Inspector General
2
    Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
internal control—internal control over the effectiveness and
efficiency of operations and compliance with laws and regulations—
can be enhanced. Although the Board is not subject to the Federal
Managers’ Financial Integrity Act of 1982 (FMFIA), the Board
decided to voluntarily comply with its spirit and intent shortly
after its enactment. We believe that an agency-wide process that
maintains, monitors, and reports on administrative internal control
can assist the Board in effectively and efficiently achieving its
mission, goals, and objectives, as well as address the organizational
challenges outlined in the Board’s 2012–2015 strategic framework.
We recommended that the Board develop and implement an
agency-wide policy and process to more closely follow the spirit
and intent of FMFIA and develop an associated training program.
Management concurred with the recommendation’s intent.
Ensuring the Integrity of the CFPB’s Government Travel Card
Program. We conducted an audit to determine the effectiveness
of the CFPB’s internal controls for its government travel card
(GTC) program. We found that internal controls for the CFPB’s
GTC program should be strengthened to ensure program integrity.
While controls over the GTC issuance process were designed
and operating effectively, controls are not designed or operating
effectively to (1) prevent and detect fraudulent or unauthorized
use of GTCs and (2) provide reasonable assurance that cards are
properly monitored and closed out. We made 14 recommendations
designed to assist the CFPB in strengthening its internal controls
over the GTC program. Management concurred with our
recommendations and is planning to take actions to implement
them.
Strengthening Compliance with the CFPB’s Purchase Card
Policies and Procedures. We conducted an audit to assess whether
the controls for the CFPB’s purchase card program were adequate to
(1) ensure that purchase card use is appropriate and in compliance
with applicable laws, regulations, and the CFPB’s policies and
procedures and (2) prevent and detect improper or fraudulent use
of purchase cards. We found that internal controls for the CFPB’s
purchase card program are adequate and operating effectively.
We noted, however, several instances of noncompliance with
applicable policies and procedures. We made two recommendations
designed to ensure that purchase cardholders and agency program
coordinators exercise appropriate internal controls to ensure the




Semiannual Report to Congress | April 1, 2013–September 30, 2013        3
    integrity of the purchase card program. Management concurred
    with our recommendations and has initiated steps to implement
    them.
    Preparing for and Responding to Emergency Events at the
    Board. We conducted an evaluation of the Board’s policies and
    procedures for responding to unexpected emergency events and to
    assess communications protocols for processing and disseminating
    information to Board staff during such emergencies. We found
    that drills and exercises to prepare for emergencies did not fully
    incorporate all components of the Occupant Emergency Plan. In
    addition, we found that the floor warden program had challenges
    with respect to recruiting and retaining volunteers and that floor
    wardens are not completing annual training. Finally, we found
    that the Board does not have the ability to send public address
    announcements to employees working in leased office space because
    the buildings lack such a system. We made seven recommendations
    to improve the Board’s emergency preparedness. Management
    generally concurred with our recommendations.




    Office of Inspector General
4
    Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Introduction
Congress established the OIG as an independent oversight
authority of the Board, the government agency component of
the broader Federal Reserve System, and the CFPB. Within this
framework, the OIG conducts audits, investigations, and other
reviews related to Board and CFPB programs and operations. By
law, the OIG is not authorized to perform program functions.
Consistent with the IG Act, our office has the following
responsibilities:
  •	 to conduct and supervise independent and objective audits,
     investigations, and other reviews related to Board and CFPB
     programs and operations to promote economy, efficiency, and
     effectiveness within the Board and the CFPB
  •	 to help prevent and detect fraud, waste, abuse, and
     mismanagement in Board and CFPB programs and operations
  •	 to review existing and proposed legislation and regulations and
     make recommendations regarding possible improvements to
     Board and CFPB programs and operations
  •	 to keep the Board of Governors, the Director of the CFPB, and
     Congress fully and currently informed
Congress has also mandated additional responsibilities that
influence the OIG’s priorities, to include the following:
  •	 Section 38(k) of the Federal Deposit Insurance Act, as amended
     (FDI Act), requires that the OIG review failed financial
     institutions supervised by the Board that result in a material
     loss to the Deposit Insurance Fund (DIF) and produce a
     report within six months. Section 38(k) also requires that
     the OIG report on the results of any nonmaterial losses to
     the DIF that exhibit unusual circumstances. For those in-
     depth reviews, we report our results in a manner similar to a
     material loss review. For nonmaterial losses that do not exhibit
     unusual circumstances, we have summarized the results of
     our assessments in table 9 on page 49 in accordance with the
     requirements of section 38(k).




Semiannual Report to Congress | April 1, 2013–September 30, 2013        5
       •	 Section 211(f ) of the Dodd-Frank Wall Street Reform and
          Consumer Protection Act (Dodd-Frank Act) requires that the
          OIG review the Board’s supervision of any covered financial
          company that is placed into receivership and produce a report
          that evaluates the effectiveness of the Board’s supervision,
          identifies any acts or omissions by the Board that contributed to
          or could have prevented the company’s receivership status, and
          recommends appropriate administrative or legislative action.
       •	 Section 989E of the Dodd-Frank Act established the Council
          of Inspectors General on Financial Oversight (CIGFO), which
          comprises the Inspectors General (IGs) of the Board, the
          Commodity Futures Trading Commission, the Department
          of Housing and Urban Development, the U.S. Department
          of the Treasury (Treasury), the FDIC, the Federal Housing
          Finance Agency, the National Credit Union Administration, the
          Securities and Exchange Commission, and the Special Inspector
          General for the Troubled Asset Relief Program (SIGTARP).
          CIGFO is required to meet at least quarterly to share
          information and discuss the ongoing work of each IG, with a
          focus on concerns that may apply to the broader financial sector
          and ways to improve financial oversight. Additionally, CIGFO
          is required to issue a report annually that highlights the IGs’
          concerns and recommendations, as well as issues that may apply
          to the broader financial sector. CIGFO also has the authority
          to convene a working group of its members to evaluate the
          effectiveness and internal operations of the Financial Stability
          Oversight Council (FSOC), which was created by the Dodd-
          Frank Act and is charged with identifying threats to the nation’s
          financial stability, promoting market discipline, and responding
          to emerging risks to the stability of the nation’s financial system.
       •	 With respect to information technology (IT), the Federal
          Information Security Management Act of 2002 (FISMA)
          established a legislative mandate for ensuring the effectiveness
          of information security controls over resources that support
          federal operations and assets. Consistent with FISMA
          requirements, we perform annual independent reviews of the
          Board’s and the CFPB’s information security programs and
          practices, including the effectiveness of security controls and
          techniques for selected information systems.




    Office of Inspector General
6
    Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
  •	 The USA Patriot Act of 2001 grants the Board certain federal
     law enforcement authorities. Our office serves as the external
     oversight function for the Board’s law enforcement program.
  •	 Section 11B of the Federal Reserve Act mandates annual
     independent audits of the financial statements of each Federal
     Reserve Bank and of the Board. We oversee the annual
     financial statement audits of the Board and of the Federal
     Financial Institutions Examination Council (FFIEC). (The
     Board performs the accounting function for the FFIEC.) The
     FFIEC is a formal interagency body empowered to prescribe
     uniform principles, standards, and report forms for the federal
     examination of financial institutions by the Board, the FDIC,
     the National Credit Union Administration, the Office of
     the Comptroller of the Currency (OCC), and the CFPB
     and to make recommendations to promote uniformity in the
     supervision of financial institutions. (Under the Dodd-Frank
     Act, the Government Accountability Office performs the
     financial statement audits of the CFPB.)




Semiannual Report to Congress | April 1, 2013–September 30, 2013       7
Audits, Evaluations,
and Inspections
Audits assess aspects of the economy, efficiency, and effectiveness of
Board and CFPB programs and operations. For example, the OIG
oversees audits of the Board’s financial statements and financial
performance reports, and it conducts audits of (1) the efficiency
and effectiveness of processes and internal controls over agency
programs and operations; (2) the adequacy of controls and security
measures governing agency financial and management information
systems and the safeguarding of assets and sensitive information;
and (3) compliance with applicable laws and regulations related
to agency financial, administrative, and program operations. As
mandated by the IG Act, OIG audits are performed in accordance
with the Government Auditing Standards established by the
Comptroller General.
Inspections and evaluations include program evaluations,
enterprise risk-management activities, process design and life-cycle
evaluations, and legislatively mandated reviews of failed financial
institutions supervised by the Board. Inspections are generally
narrowly focused on a particular issue or topic and provide time-
critical analysis that cuts across functions and organizations. In
contrast, evaluations are generally focused on a specific program or
function and may make extensive use of statistical and quantitative
analytical techniques. Evaluations can also encompass other
preventive activities, such as reviews of system development life-
cycle projects. OIG inspections and evaluations are performed
according to the Quality Standards for Inspection and Evaluation
issued by the Council of the Inspectors General on Integrity and
Efficiency (CIGIE).
The information below summarizes OIG work completed during
the reporting period and ongoing work that will continue into the
next semiannual reporting period.




Semiannual Report to Congress | April 1, 2013–September 30, 2013         9
     Board of Governors of the
     Federal Reserve System

     Completed Projects

     Board Should Strengthen Controls over the Handling of
     the Federal Open Market Committee Meeting Minutes
     OIG Report No. 2013-AE-B-012	                                           August 27, 2013

     We initiated this audit at the request of the Board’s Chairman.
     An official in the Board’s Congressional Liaison Office (CLO)
     e-mailed the FOMC meeting minutes to an e-mail distribution
     list (CLO contact list) on April 9, 2013, one day earlier than the
     scheduled release date. As a result, the Board issued the FOMC
     minutes at 9:00 a.m. on April 10, 2013, rather than the scheduled
     2:00 p.m. release time. Our audit objectives were to evaluate the
     Board’s processes for distributing the approved FOMC minutes to
     Board staff prior to their public release and the Board’s management
     controls to prevent the early distribution of those minutes.
     During the three-week period following an FOMC meeting, the
     meeting minutes are drafted, edited, and approved prior to public
     release. The FOMC minutes are finalized approximately 24 hours
     prior to publication and loaded into the Board’s publication system.
     FOMC Secretariat staff notify Office of Board Members staff that
     the FOMC minutes are ready for publication. Subsequently, Office
     of Board Members staff prepare the minutes to be released to the
     public. The Program for Security of FOMC Information describes
     who is responsible for ensuring that FOMC information, including
     the FOMC minutes, is safeguarded and how it should be handled.
     While CLO and the Board’s Public Affairs Office staff are
     required to properly safeguard FOMC information in accordance
     with the Program for Security of FOMC Information, the Office of
     Board Members has not established formal written management
     controls to ensure that the Division Director’s directives regarding
     the CLO contact list and publication of the FOMC minutes
     are implemented. We noted that the CLO did not have written
     policies and procedures related to the dissemination of information
     to the CLO contact list. In addition, neither the CLO nor the




     Office of Inspector General
10
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Public Affairs Office had written policies and procedures regarding
the business processes that require access to the FOMC minutes.
Public Affairs Office and CLO staff also did not handle the FOMC
minutes in accordance with the Program for Security of FOMC
Information. Before being given access to confidential FOMC
information, including the FOMC minutes, Board staff members
agree to abide by the Program for Security of FOMC Information,
which incorporates the Board’s Information Classification and
Handling Standard. Although the Board provides required annual
training that covers the Information Classification and Handling
Standard, training on FOMC-specific information-handling
requirements is not provided.
The Program for Security of FOMC Information requires that access
to FOMC information be limited to those with a strict need to
know. However, the access control list for the publication system
included two Board staff members who may not have needed access
to the system, and Division of Monetary Affairs staff did not limit
access to the FOMC minutes to a subset of users on the publication
system access control list with a need to know.
We made four recommendations designed to strengthen the Board’s
controls over the handling of the approved FOMC minutes prior to
public release. Management concurred with the recommendations
and has initiated steps to implement them. Management also stated
that it has taken actions to improve compliance with the Program for
Security of FOMC Information.


The Board Can Benefit from Implementing an
Agency-Wide Process for Maintaining and Monitoring
Administrative Internal Control
OIG Report No. 2013-AE-B-013	                                      September 5, 2013

Our objective for this audit was to determine the processes for
establishing, maintaining, and monitoring internal control within
the Board. We focused on internal control over the effectiveness
and efficiency of operations and compliance with laws and
regulations, i.e., administrative internal control. Internal control
is an integral part of managing an organization and is critical
to improving organizational effectiveness and accountability. It
comprises the plans, methods, and procedures used to meet the




Semiannual Report to Congress | April 1, 2013–September 30, 2013                       11
     organization’s mission, goals, and objectives. Internal control is
     the first line of defense in safeguarding assets and preventing and
     detecting errors and fraud; thus, it helps organizations achieve
     desired results through effective stewardship of government
     resources.
     FMFIA requires that each executive agency establish internal
     accounting and administrative controls in compliance with
     standards established by the Government Accountability Office
     and prepare an annual statement on internal control based on an
     evaluation performed using Office of Management and Budget
     (OMB) guidelines. Although the Board is not subject to FMFIA,
     the Board decided to voluntarily comply with the spirit and intent
     of FMFIA shortly after its enactment.
     We found that the Board’s divisions have processes for establishing
     administrative internal control that are tailored to their specific
     responsibilities. These controls generally use best practices and are
     designed to increase efficiency and react to changing environments;
     however, the Board’s processes for maintaining and monitoring
     these controls can be enhanced. Specifically, we found that the
     Board does not have an agency-wide process for maintaining
     and monitoring its administrative internal control. The Board’s
     approach to addressing the provisions of FMFIA does not require
     management to assess and monitor administrative internal control.
     We believe that an agency-wide process that maintains, monitors,
     and reports on administrative internal control can assist the Board
     in effectively and efficiently achieving its mission, goals, and
     objectives, as well as address the organizational challenges outlined
     in the Board’s 2012–2015 strategic framework.
     We recommended that the Chief Operating Officer designate
     responsible officials or an office to develop and implement
     an agency-wide policy and process to more closely follow the
     spirit and intent of FMFIA and develop a training program
     to increase staff awareness about maintaining and monitoring
     administrative internal control. Management concurred with
     the recommendation’s intent, stating that the Board has already
     implemented, or is in the process of implementing, several enhanced
     administrative processes. Management added that it will evaluate
     whether and in what form an agency-wide framework makes
     sense, given the priorities and budgetary constraints underlying the
     Board’s new strategic framework, and that it will coordinate with




     Office of Inspector General
12
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
the Executive Committee of the Board to implement any additional
requirements.


The Board Should Improve Procedures for Preparing for
and Responding to Emergency Events
OIG Report No. 2013-AE-B-016	                                      September 30, 2013

Our objectives for this evaluation were to assess the Board’s
policies and procedures for responding to unexpected emergency
events and to assess communications protocols for processing and
disseminating information to Board staff during such emergencies.
The Board has a crisis management structure in place and has
procedures to prepare for and respond to emergency events. Key
components of the crisis management structure are the Crisis
Leadership Team, which ensures the continuity of Board operations
and essential functions, and the Crisis Support Team, which
manages the actual emergency.
During an emergency, the Law Enforcement Unit (LEU) Chief
serves as the Crisis Support Team lead and incident commander.
Floor wardens assist the LEU during emergencies by ensuring
that employee evacuations are quick, orderly, and safe. The LEU’s
Safety and Emergency Preparedness Bureau performs considerable
planning and other activities to prepare for emergencies, including
conducting annual floor warden training. The bureau also prepares
the Board’s Occupant Emergency Plan, which describes the roles
and responsibilities for employees, contractors, and visitors, as well
as the responsibilities for components of the crisis management
structure.
We found that drills and exercises to prepare for emergencies did
not fully incorporate all components of the Occupant Emergency
Plan. The Crisis Leadership Team did not convene during
drills to make critical decisions to ensure that Board operations
and essential functions continued with minimal disruption, and
employees were not fully accounted for after the drills. In addition,
tabletop exercises, an emergency preparedness best practice, were
not routinely performed because they are not required. Incomplete
drills and the absence of full-scale tabletop exercises to supplement
the drills decrease the likelihood of appropriate responses to
emergencies.




Semiannual Report to Congress | April 1, 2013–September 30, 2013                        13
     In addition, we found that the floor warden program has challenges
     recruiting and retaining volunteers, and we found that floor wardens
     are not completing annual training. Therefore, the Board lacks
     assurance that there will be a sufficient number of trained floor
     wardens available during actual emergencies to assist in the safe,
     orderly movement of employees, including those who require
     assistance due to physical limitations.
     Finally, we found that the Board does not have the capability to
     send public address announcements to employees working in leased
     office space because the buildings lack such a system. Employees
     may receive crucial information via telephone, intranet, e-mail, text,
     or word of mouth. This limitation increases the risk that employees
     may not receive the appropriate instructions simultaneously and in a
     timely manner and may make uninformed decisions that could place
     them in harm’s way.
     We made seven recommendations to improve the Board’s
     emergency preparedness. We recommended that the Crisis
     Leadership Team convene during evacuation drills, that employees
     be accounted for after drills and emergencies, and that full-scale
     tabletop exercises be conducted as an additional training tool. We
     also recommended that floor wardens complete annual training, that
     division directors be required to recruit floor wardens, and that the
     floor warden roster be kept up to date. Finally, we recommended
     that all Board employees working in leased office spaces receive
     critical information simultaneously and in a timely manner.
     Management generally concurred with our recommendations.


     Board Should Enhance Compliance with Small Entity
     Compliance Guide Requirements Contained in the Small
     Business Regulatory Enforcement Fairness Act of 1996
     OIG Report No. 2013-AE-B-008	                                                July 1, 2013

     In this evaluation, we assessed the Board’s compliance with certain
     requirements of the Small Business Regulatory Enforcement
     Fairness Act of 1996, as amended (SBREFA). We initiated this
     evaluation to determine the validity of a complaint received by the
     OIG Hotline concerning the Board’s compliance with SBREFA.
     SBREFA became law in 1996 and was later amended by the Small
     Business and Work Opportunity Act of 2007 to include specific




     Office of Inspector General
14
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
requirements for small entity compliance guides. These guides
are created by federal rulemaking agencies to explain the actions a
small entity should take to comply with a rule. Section 605(b) of
SBREFA generally allows the agency head to certify in the Federal
Register, as part of the proposed or final rule, that the final rule will
not have a significant economic impact on a substantial number
of small entities. In such cases, a compliance guide does not have
to be created. The 2007 amendments to SBREFA also included a
congressional reporting requirement.
We found that the Board was not consistent in developing or
updating small entity compliance guides in accordance with
SBREFA requirements. In addition, the Board’s compliance
guides did not consistently provide clear guidance to small
entities explaining how to comply with certain rules or when the
requirements of the specific rules would be satisfied. Instead, many
of the guides merely restated and summarized each section of the
rules.
We also reviewed the Board’s compliance with the annual
congressional reporting requirement to describe the status of
the agency’s compliance with the small entity compliance guide
requirements created by the 2007 amendments to SBREFA. We
requested documentation evidencing that the annual congressional
reporting requirement had been satisfied, but we did not receive any.
We recommended that the Board establish centralized oversight
and a standard method or approach for creating small entity
compliance guides. We also recommended that the Board begin
submitting the annual reports describing the agency’s compliance
with small entity compliance guide requirements to the relevant
congressional committees as required by section 212(a)(6) of
SBREFA. Management concurred with our recommendations and
stated that it will take steps to implement them.


Security Control Review of a Third-party Commercial
Data Exchange Service Used by the Board's Division of
Banking Supervision and Regulation
OIG Report No. 2013-IT-B-010	                                      August 6, 2013

FISMA requires the OIG to evaluate the effectiveness of the
information security controls and techniques for a subset of the




Semiannual Report to Congress | April 1, 2013–September 30, 2013                    15
     Board’s information systems, including those provided or managed
     by another agency, a contractor, or another organization. As part
     of the OIG’s work to fulfill this requirement, we reviewed the
     information system security controls for a third-party commercial
     data exchange service. Specifically, our audit objective was to
     evaluate the adequacy of selected security controls for protecting
     Board data from unauthorized access, modification, destruction, or
     disclosure, as well as compliance with FISMA and the information
     security policies, procedures, standards, and guidelines of the Board.
     The Board’s Division of Banking Supervision and Regulation
     (BS&R) uses the commercial data exchange service to securely
     exchange sensitive business information with financial institutions.
     The service is listed on the Board’s FISMA inventory as a third-
     party application maintained by the Federal Reserve Bank of
     Philadelphia. BS&R is assigned overall responsibility for ensuring
     that the system meets FISMA requirements.
     Overall, we found that the Board has taken steps to secure the
     third-party commercial data exchange service. However, we found
     that improvements are needed to ensure that the requirements of
     FISMA and the Board Information Security Program are met.
     We made 11 recommendations to BS&R to strengthen
     security controls for the system. Management concurred
     with 10 recommendations and partially concurred with one
     recommendation. For the 10 recommendations with which
     management concurred, it outlined actions that have been taken,
     are underway, or are planned to address the recommendations. For
     the recommendation with which management partially concurred,
     it outlined planned actions that are responsive to the intent of the
     recommendation. We will follow up on the implementation of each
     recommendation as part of our future audit activities related to the
     Board’s continuing implementation of FISMA.


     Security Control Review of the Board's National
     Examination Database System
     OIG Report No. 2013-IT-B-009	                                               July 19, 2013

     To meet FISMA requirements, we reviewed the information system
     security controls for the National Examination Database (NED)
     system. NED is the database within BS&R’s National Information




     Office of Inspector General
16
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Center that is specifically designed to support bank supervision, and
it is listed as a major application on the Board’s FISMA inventory
for BS&R. Specifically, our audit objective was to evaluate the
adequacy of certain control techniques designed to protect data in
the system from unauthorized access, modification, destruction, or
disclosure, as well as the system’s compliance with FISMA and the
information security policies, procedures, standards, and guidelines
of the Board.
We found that, in general, controls for NED are adequately
designed and implemented. However, we found that improvements
are needed to ensure that the requirements of FISMA and the
Board Information Security Program are met. We made four
recommendations designed to strengthen security controls for
the system. Our report also included a matter for management’s
consideration. Management concurred with our recommendations
and outlined actions that have been taken, are underway, or are
planned to address the recommendations. We will follow up on
the implementation of each recommendation in this report as
part of our future audit activities related to the Board’s continuing
implementation of FISMA.


Results from OIG Vulnerability Scanning of Select
Servers for the Board's Information Technology and
Management Divisions
June 19, 2013

During this reporting period, we issued a management letter that
documented our IT vulnerability scanning results and provided
two suggestions to the Board for strengthening security controls.
We conducted our scanning to support our annual audit of the
Board’s information security program pursuant to FISMA.
FISMA requires agencies to develop, document, and implement an
information security program that, among other things, includes
periodic risk assessments of the harm that could result from
vulnerabilities within information systems. One component of
an agency’s risk-management program is vulnerability scanning.
Vulnerability scanning commonly refers to using automated tools
to identify vulnerabilities in information systems resulting from
outdated software versions, missing patches, and misconfigurations.




Semiannual Report to Congress | April 1, 2013–September 30, 2013        17
     Status of the Transfer of Office of Thrift Supervision
     Functions
     OIG Report No. 2013-AE-B-014	                                      September 26, 2013

     Title III of the Dodd-Frank Act established provisions for the
     transfer of authorities from the Office of Thrift Supervision (OTS)
     to the OCC, the FDIC, and the Board within one year after the
     July 21, 2010, enactment date. Title III transferred to the Board,
     on July 21, 2011, the functions and rulemaking authority for
     consolidated supervision of savings and loan holding companies
     and their nondepository subsidiaries. The Dodd-Frank Act
     required that, within 180 days after its enactment, the OTS, the
     OCC, the FDIC, and the Board jointly submit a plan—the Joint
     Implementation Plan—to Congress and the IGs of Treasury, the
     FDIC, and the Board that detailed the steps each agency would take
     to implement the title III provisions. The Joint Implementation
     Plan was submitted to Congress and the IGs on January 25, 2011.
     The Dodd-Frank Act also required the IGs to determine whether
     the implementation plan conformed to the title III provisions. On
     March 28, 2011, the IGs jointly issued a report concluding that
     the actions described in the Joint Implementation Plan generally
     conformed to the provisions of title III.
     Section 327 of title III requires the IGs to report on the status of
     the implementation of the Joint Implementation Plan every six
     months. The IGs have issued five status reports to date, the latest
     of which was issued during this reporting period, on September 26,
     2013. These joint reports, all of which are titled Status of the
     Transfer of Office of Thrift Supervision Functions, concluded that
     the Board, the FDIC, the OCC, and the OTS have substantially
     implemented actions to transfer OTS functions, employees, funds,
     and property to the Board, the FDIC, and the OCC, as appropriate.
     The first four reports noted that the Board was still implementing
     certain aspects of the plan.
     As previously reported, for savings and loan holding companies and
     bank holding companies with consolidated assets of $50 billion
     or more, and for nonbank financial companies that the Board
     is required to supervise pursuant to the Dodd-Frank Act, the
     Board is to collect assessments, fees, or other charges equal to the
     expenses the Board estimates are necessary or appropriate to carry
     out its supervisory and regulatory responsibilities. To address




     Office of Inspector General
18
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
this requirement, the Board’s notice of proposed rulemaking for
comment on the assessments, fees, and other charges was published
in the April 18, 2013, Federal Register. The September 26, 2013,
report noted that the rulemaking for the collection of supervisory
assessments by the Board was finalized. In its written response
to the September 26, 2013, report, the Board stated that it agreed
with the IGs’ conclusions regarding the assessments, fees, and other
charges required pursuant to the Dodd-Frank Act.


Audit of the Financial Stability Oversight Council's
Designation of Financial Market Utilities: Report to the
Financial Stability Oversight Council and the Congress
Prepared by the Council of Inspectors General on
Financial Oversight	                                               July 2013

In 2013, our office participated in a working group convened by
CIGFO to examine the rules, procedures, and practices established
by FSOC and its member agencies to designate financial market
utilities (FMUs) as systemically important and therefore subject to
the requirements of title VIII of the Dodd-Frank Act. In addition,
the working group made inquiries regarding FSOC’s processes to
designate payment, clearing, and settlement activities conducted by
financial institutions as systemically important.
The working group determined that FSOC carried out the
designation activities as established in title VIII. FSOC created the
Designations of Financial Market Utilities and Payment, Clearing,
and Settlement Activities Committee, which carried out its
activities in the designation process as intended by FSOC.
During the designation process, FSOC did not consider for
designation foreign-based FMUs; retail FMUs; or payment,
clearing, and settlement activities conducted by financial
institutions. The working group was told that FSOC continues to
consider designating foreign-based FMUs and payment, clearing,
and settlement activities.
The working group made several recommendations regarding
establishing a formal structure for the FMU committee;
determining a course of action for foreign-based FMUs; continuing
discussion of the process and rules regarding possible future
designation of payment, clearing, and settlement activities; defining




Semiannual Report to Congress | April 1, 2013–September 30, 2013               19
     parameters for updates on designated FMUs from their respective
     regulators; and establishing a timeline for periodic reviews of
     nondesignated FMUs that may subsequently be designated as
     systemically important. The working group considered FSOC’s
     response and planned actions regarding the recommendations to be
     responsive.


     Work in Progress

     Review of the Federal Reserve's Supervisory Activities
     Related to the Loss at JPMorgan Chase & Co.'s Chief
     Investment Office
     We continued fieldwork for our evaluation of the Federal Reserve’s
     supervisory activities related to the multibillion-dollar loss at
     JPMorgan Chase’s Chief Investment Office. Our objectives for
     this evaluation are to (1) assess the effectiveness of the Board’s and
     the Federal Reserve Bank of New York’s consolidated and other
     supervisory activities regarding JPMorgan Chase’s Chief Investment
     Office and (2) identify lessons learned for enhancing future
     supervisory activities.


     Audit of the Board's Information Security Program
     During this reporting period, we began our annual audit of the
     Board’s information security program and practices. This audit is
     being performed pursuant to FISMA, which requires each agency
     IG to conduct an annual independent evaluation of the agency’s
     information security program and practices. Our specific audit
     objectives are to evaluate the effectiveness of security controls
     and techniques for selected information systems and to evaluate
     compliance by the Board with FISMA and related information
     security policies, procedures, standards, and guidelines provided by
     the National Institute of Standards and Technology (NIST), OMB,
     and the Department of Homeland Security. In accordance with
     reporting requirements, our FISMA review includes an analysis
     of the Board’s security-related processes in the following areas:
     risk management, continuous monitoring management, plan of
     action and milestones, identity and access management, remote
     access management, configuration management, security training,




     Office of Inspector General
20
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
contractor systems, contingency planning, incident response and
reporting, and security capital planning. We expect to complete this
project and issue our final report in the next reporting period.


Audit of the Board's Cost Estimates Associated with the
Martin Building Construction and Renovation Project
We initiated an audit to assess how the estimated costs for
the Martin Building construction and renovation project were
determined and how these costs will be managed within the
Board’s strategic framework. The Board’s strategic framework
for the period 2012–2015 identified that upgrades to the Martin
Building’s physical infrastructure were necessary to ensure that
the work environment is safe, secure, and modern and to reduce
utility consumption and expenses. A comprehensive renovation
of the Martin Building, including the construction of a conference
center and a visitors’ center, will address these concerns and
will require significant capital investments. The importance of
the Martin Building project specifically and the overall need to
achieve significant cost savings throughout the Board are critical
components of the Board’s strategic framework. We expect to
complete this review and issue our final report in the next reporting
period.


Inspection of the Board's Law Enforcement Unit
The OIG is required by the Uniform Regulations for Federal Reserve
Law Enforcement Officers to periodically inspect the Board’s
LEU. Our objective for this inspection is to assess compliance
with the Uniform Regulations for Federal Reserve Law Enforcement
Officers, Board and LEU internal policies and procedures, and
applicable laws. The USA Patriot Act of 2001 granted the Board
certain federal law enforcement authorities. To implement these
authorities, the Board promulgated the Uniform Regulations
for Federal Reserve Law Enforcement Officers in 2002. The
regulations designated the Board’s OIG as the external oversight
function responsible for reviewing and evaluating the Board’s law
enforcement programs and operations, and we are conducting this
inspection as part of our external oversight responsibilities. We
completed our fieldwork during this reporting period, and we expect
to issue our report during the next reporting period.




Semiannual Report to Congress | April 1, 2013–September 30, 2013        21
     Evaluation of the Operational Components of the Board's
     Law Enforcement Unit
     We initiated an evaluation of the operational components of
     the Board’s LEU. The LEU safeguards most Board-designated
     property and personnel 24 hours a day, 7 days a week. In the
     Board’s strategic framework for the next three years, the sixth
     strategic theme is to establish a cost-reduction approach for
     Board operations that maintains an effective and efficient use of
     financial resources. Accordingly, the Board’s Management Division,
     which includes the LEU, has linked its objectives to the strategic
     framework and is working to identify opportunities for potential
     cost savings and to improve operational efficiencies. Our objective
     for this evaluation is to assess the economy and efficiency of the
     LEU, including the various operational components within the
     organization. During the evaluation, we will consider the LEU’s
     cost-reduction efforts already in process, assess the use of staffing
     models (e.g., roles and responsibilities and staff resources), and
     identify potential enhancements to LEU operations that may more
     effectively use security technology.


     Audit of the Provisioning of Information Technology
     Services across Board Divisions
     We completed fieldwork and have briefed Board management on
     an audit of the Board’s IT services. Our audit objectives are to
     identify (1) how IT services are provided across the organization
     and (2) the potential to enhance operational efficiencies. In the
     Board’s strategic framework for the next three years, the sixth
     strategic theme is to establish a cost-reduction approach for Board
     operations that maintains an effective and efficient use of financial
     resources. Accordingly, Board divisions have linked their objectives
     to the strategic framework and are working to identify opportunities
     for potential cost savings and improved operational efficiencies. We
     expect to issue our final report in the next reporting period.


     Development of a Comprehensive Audit Plan of the
     Board's Functions and Operations
     The OIG has initiated a planning effort for audits and evaluations
     that includes reviewing aspects of the Board’s operations to identify




     Office of Inspector General
22
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
an audit universe of core functions at the organization, division,
and office levels. Our risk-based planning activities are designed to
allow us to target our independent oversight of those programs and
operations to which we can add value by providing timely products
and services that will produce positive, measurable results. This
analysis will facilitate the scheduling of projects to be undertaken
in 2014 and the development of a multiyear general plan for
subsequent years.


Audit of the Board of Governors of the Federal Reserve
System Financial Statements as of and for the Years
Ending December 31, 2013, and 2012
We contract for an independent public accounting firm to annually
perform an integrated audit of the Board’s financial statements.
The accounting firm performs the audit in accordance with
generally accepted government auditing standards and expresses
an opinion on the Board’s financial statements. In addition, as
part of the integrated audit, and in accordance with the auditing
standards of the Public Company Accounting Oversight Board,
the independent auditors perform an audit of the effectiveness of
internal controls over financial reporting and express an opinion on
these controls. The audit involves performing procedures to obtain
audit evidence about the amounts and disclosures in the financial
statements, evaluating the appropriateness of the accounting
principles used and the reasonableness of significant estimates made
by management, as well as evaluating the overall financial statement
presentation. The audit also involves obtaining an understanding
of internal control over financial reporting, assessing the risk that a
material weakness exists, and testing and evaluating the design and
operating effectiveness of internal control. We oversee the activities
of the independent public accounting firm to ensure compliance
with generally accepted government auditing standards and Public
Company Accounting Oversight Board auditing standards related
to internal controls over financial reporting.
In accordance with generally accepted government auditing
standards, the independent auditors also will perform tests of the
Board’s compliance with certain provisions of laws and regulations,
since noncompliance with these provisions could have a direct and
material effect on the determination of the financial statement




Semiannual Report to Congress | April 1, 2013–September 30, 2013          23
     amounts. The independent auditors’ reports will be issued in the
     next semiannual reporting period.


     Audit of the Federal Financial Institutions Examination
     Council Financial Statements as of and for the Years
     Ending December 31, 2013, and 2012
     The Board performs the accounting function for the FFIEC,
     and we contract for an independent public accounting firm to
     annually audit the FFIEC’s financial statements. The accounting
     firm performs the audit in accordance with generally accepted
     government auditing standards and expresses an opinion on the
     FFIEC’s financial statements. The audit involves performing
     procedures to obtain audit evidence about the amounts and
     disclosures in the financial statements. The audit also includes an
     evaluation of the appropriateness of accounting principles used and
     significant accounting estimates made by management, as well as
     an evaluation of the overall financial statement presentation. We
     oversee the activities of the independent public accounting firm to
     ensure compliance with generally accepted government auditing
     standards.
     In accordance with generally accepted government auditing
     standards, the independent auditors also will consider the FFIEC’s
     internal controls over financial reporting and will perform tests
     of the FFIEC’s compliance with certain provisions of laws and
     regulations, since noncompliance with these provisions could have
     a direct and material effect on the determination of the financial
     statement amounts. The independent auditors’ reports will be
     issued in the next semiannual reporting period.


     Evaluation of the Board's Policies, Procedures,
     and Practices Associated with Agency-Sponsored
     Conferences
     We initiated an evaluation of the Board’s conference-related
     activities. The objectives of our evaluation focus on determining
     the controls, policies, procedures, and practices associated with
     conferences. The review is limited to conference activities
     sponsored by the Board. We plan to issue our report during the
     next semiannual reporting period.




     Office of Inspector General
24
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Evaluation of the Board's Corporate Services
The OIG is conducting an evaluation of the Board’s corporate
services function to determine the extent to which Board staff use
such services and to identify potential economies and efficiencies.
We completed fieldwork for the mail services section of the
corporate services evaluation, and we are continuing with the
evaluation of the motor transport and print shop services. In the
Board’s strategic framework for the next three years, the sixth
strategic theme is to establish a cost-reduction approach for Board
operations that maintains an effective and efficient use of financial
resources. Accordingly, Board divisions, such as the Management
Division, have linked their objectives to the strategic framework
and are working to identify opportunities for potential cost savings
and to improve operational efficiencies. We expect to complete our
evaluation during the next semiannual reporting period.


Evaluation of Enforcement Actions against Institution-
Affiliated Parties
In 2013, the OIGs for the Board, the FDIC, and the OCC initiated
a joint evaluation of the processes for initiating enforcement actions
and professional liability claims against institution-affiliated parties
of failed institutions. Our objectives are to (1) describe the process
for initiating enforcement actions against institution-affiliated
parties for state member banks, (2) report the results of the Board’s
efforts in investigating and pursing enforcement actions against
institution-affiliated parties with a focus on individuals associated
with failed state member banks, and (3) identify key factors that
may impact the pursuit of enforcement actions against institution-
affiliated parties.


Evaluation of the Board's Oversight of Mortgage
Servicing Enforcement Actions and Settlement
Agreements
We are conducting an evaluation of the Board’s oversight of a
settlement with mortgage servicers for alleged deficient mortgage
foreclosure practices. In January 2013, the Board and the OCC
announced a settlement with mortgage servicers to compensate
borrowers who were potentially harmed. The settlement covers




Semiannual Report to Congress | April 1, 2013–September 30, 2013           25
     borrowers who had a mortgage on their primary residence that was
     in any stage of foreclosure in 2009 or 2010 and that was serviced by
     one of the participating servicers. The settlement required mortgage
     servicers to slot the borrowers into various categories based on
     possible harm. The Board and the OCC associated payment
     amounts with each category. The amounts range from $300 to
     $125,000. A paying agent was hired by the servicers to mail checks,
     totaling about $3.6 billion, to approximately 4.2 million borrowers.
     Our objectives are to (1) evaluate the Board’s overall approach
     to oversight of the settlement, (2) determine the effectiveness of
     the Board’s oversight of the slotting process, and (3) determine
     the effectiveness of the Board’s oversight of the payment process
     executed by the paying agent.


     Audit of the Division of Reserve Bank Operations
     and Payment Systems' Oversight of Reserve Banks'
     Wholesale Financial Services
     We initiated an audit of the Division of Reserve Bank Operations
     and Payment Systems’ (RBOPS’s) oversight of Reserve Banks’
     wholesale financial services. Our objective is to assess the
     extent and effectiveness of RBOPS’s oversight of those services.
     Specifically, we will review how RBOPS assesses wholesale
     services against the standards defined in the Federal Reserve Policy
     on Payment System Risk to determine whether the payment and
     settlement systems incorporate (1) an appropriate risk-management
     framework and (2) the internationally accepted guidelines in their
     policies and procedures. We have completed the majority of our
     fieldwork, and we expect to issue our final report during the next
     semiannual reporting period.


     Audit of the Division of Banking Supervision and
     Regulation's Validation Process for Models Used during
     the Annual Comprehensive Capital Analysis and Review
     We are conducting an audit of BS&R’s model risk-management
     processes for the supervisory models used in support of the annual
     Comprehensive Capital Analysis and Review (CCAR). CCAR is
     an annual exercise by the Federal Reserve System to ensure that
     institutions have robust, forward-looking capital planning processes
     that account for their unique risks and that they have sufficient




     Office of Inspector General
26
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
capital to continue operations throughout times of economic and
financial stress. CCAR includes a supervisory stress test to support
the Federal Reserve System’s analysis of the adequacy of the firms’
capital. Our review assesses the overall effectiveness of the model
risk-management framework pertaining to the supervisory models,
including a wide spectrum of current model risk-management
practices and the related policies and procedures. The objectives of
our audit are to (1) assess the extent to which the Federal Reserve
System’s model risk-management procedures for CCAR stress-
testing supervisory models are consistent with Supervision and
Regulation Letter 11-7 on model risk management and (2) assess
whether the model risk-management practices are consistent with
internal policies and procedures.


Audit of the Relocation of the Board's Data Center
We have been conducting an audit of the Board’s relocation of its
data center. The relocation of the data center is a multiyear project
that is planned to be completed in 2015. We are monitoring
the project and will issue reports at key points. Our objectives
during the initial audit are to obtain information and gain an
understanding of the project’s scope, cost, and schedule. We plan to
issue an interim report in the next semiannual reporting period.


Security Control Review of the E2 Solutions Travel
System
During this reporting period, we initiated a security control review
of the E2 Solutions Travel System. E2 Solutions Travel System
is a web-based, end-to-end travel management system to plan,
authorize, arrange, process, and manage official federal travel. This
application is listed on the Board’s FISMA inventory as a third-
party system. Our objectives are to (1) evaluate the adequacy of
certain control techniques designed to protect data in the system
from unauthorized access, modification, destruction, or disclosure
and (2) assess compliance with Board Information Security Program
and FISMA requirements. We expect to complete the review and
issue our final report during the next semiannual reporting period.




Semiannual Report to Congress | April 1, 2013–September 30, 2013        27
     Audit of the Board's STAR Modernization Project
     We are conducting an audit of the STAR modernization project.
     STAR is the central computer application used by the statistics
     function at the Federal Reserve Banks and the Board to collect and
     edit over 75 periodic statistical reports from financial institutions.
     Our audit focuses on the adequacy and internal controls of the
     development process for the new system, including the cost and
     schedule. In addition, we are assessing how security controls are
     being built into the system. We expect to complete this project and
     issue our final report in the next reporting period.


     Audit of the Board's Information Technology
     Contingency Planning and Continuity of Operations
     Program
     We are conducting an audit of the Board’s IT contingency
     planning and its continuity of operations program. Our audit
     focuses on determining whether the Board’s program is consistent
     with federal guidelines, and we are reviewing how the Board’s
     contingency planning and its continuity of operations program
     provide a coordinated strategy involving plans, procedures, and
     technical measures that enable the recovery of information
     systems, operations, and data after a disruption. In addition, we
     are reviewing the cost of maintaining the Board’s IT continuity of
     operations program to identify cost savings and opportunities to
     enhance efficiencies. We plan to issue an interim report in the next
     semiannual reporting period.


     Response to a Congressional Request Regarding the
     Board's Compliance with Federal Requirements for
     Addressing Climate Change
     We received a letter from the co-chairs of the Bicameral Task Force
     on Climate Change regarding the actions taken by the Board in
     response to climate change. In the letter, the task force requested
     the identification of existing requirements in legislation, regulation,
     executive order, and other directives that apply to the Board and our
     assessment of how the Board is meeting these requirements. The
     task force also requested the identification of the Board’s authorities
     to reduce emissions of heat-trapping pollution and to make the




     Office of Inspector General
28
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
nation more resilient to the effects of climate change. During this
reporting period, we provided an initial reply to the task force,
noting that we had requested that the Board’s General Counsel
determine the federal requirements that apply to both components
of the request. We have completed our assessment of the Board’s
response and will issue a final response during the next reporting
period.

Table 1: Audit, Inspection, and Evaluation Reports Issued to the
Board during the Reporting Period
 Title                                                                Type of report
 Information technology audits
   Security Control Review of the Board’s National Examination        Audit
   Database System (nonpublic report)
   Security Control Review of a Third-party Commercial Data
   Exchange Service Used by the Board’s Division of Banking           Audit
   Supervision and Regulation (nonpublic report)
 Program audits, inspections, and evaluations
   Board Should Enhance Compliance with Small Entity Compliance
   Guide Requirements Contained in the Small Business Regulatory      Evaluation
   Enforcement Fairness Act of 1996
   Board Should Strengthen Controls over the Handling of the          Audit
   Federal Open Market Committee Meeting Minutes
   The Board Can Benefit from Implementing an Agency-Wide
   Process for Maintaining and Monitoring Administrative Internal     Audit
   Control
   Status of the Transfer of Office of Thrift Supervision Functions   Evaluation
   The Board Should Improve Procedures for Preparing for and          Evaluation
   Responding to Emergency Events
  Total number of audit reports: 4
  Total number of inspection and evaluation reports: 3




Semiannual Report to Congress | April 1, 2013–September 30, 2013                       29
     Table 2: Audit, Inspection, and Evaluation Reports Issued to the
     Board with Questioned Costs during the Reporting Perioda
       Reports                                                     Number         Dollar value
       For which no management decision had been made                       0    	$0
       by the commencement of the reporting period
       That were issued during the reporting period                         0    	$0
       For which a management decision was made during                      0    	$0
       the reporting period
         (i)	 dollar value of recommendations that were                     0    	$0
              agreed to by management
         (ii)	dollar value of recommendations that were not                 0    	$0
              agreed to by management
       For which no management decision had been made                       0    	$0
       by the end of the reporting period
       For which no management decision was made within                     0    	$0
       six months of issuance
        a.	 Because the Board is primarily a regulatory and policymaking agency, our
            recommendations typically focus on program effectiveness and efficiency,
            as well as strengthening internal controls. As such, the monetary benefit
            associated with their implementation typically is not readily quantifiable.



     Table 3: Audit, Inspection, and Evaluation Reports Issued to the
     Board with Recommendations That Funds Be Put to Better Use
     during the Reporting Perioda
       Reports                                                     Number         Dollar value
       For which no management decision had been made           	0               	$0
       by the commencement of the reporting period
       That were issued during the reporting period             	0               	$0
       For which a management decision was made during          	0               	$0
       the reporting period
         (i)	 dollar value of recommendations that were         	0               	$0
              agreed to by management
         (ii)	dollar value of recommendations that were not     	0               	$0
              agreed to by management
       For which no management decision had been made           	0               	$0
       by the end of the reporting period
       For which no management decision was made within         	0               	$0
       six months of issuance
        a.	 See note to table 2.




     Office of Inspector General
30
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Table 4: OIG Reports to the Board with Recommendations That
Were Open during the Reporting Perioda
                                                                          Status of
                                            Recommendations               recommendations




                                                                          follow-up
                                                              disagrees




                                                                                      Closed
                                                     Mgmt.

                                                              Mgmt.
                                                     agrees




                                                                                               Open
                                   Issue




                                                                          date
                                                                          Last
                                              No.
 Report title                      date
 Evaluation of Service Credit      08/05         3       3       –         09/13         2       1
 Computations
 Security Control Review of the
 FISMA Assets Maintained by        09/08       11       11       –         09/11      10         1
 the Federal Reserve Bank of
 Boston (nonpublic report)
 Evaluation of Data Flows
 for Board Employee Data
 Received by Office of             09/08         2       2       –         03/11         1       1
 Employee Benefits and Its
 Contractors (nonpublic
 report)
 Security Control Review of the
 Audit Logging Provided by
 the Information Technology        03/09         4       4       –         09/13         4       –
 General Support System
 (nonpublic report)
 Security Control Review of
 the Lotus Notes and Lotus         06/10       10       10       –         09/13      10         –
 Domino Infrastructure
 (nonpublic report)
 Security Control Review of the
 Internet Electronic Submission 12/10            6       6       –         03/13         3       3
 System (nonpublic report)
 Response to a Congressional
 Request Regarding the             06/11         2       2       –           –           –       2
 Economic Analysis Associated
 with Specified Rulemakings
 Review of the Failure of Pierce
 Commercial Bank                   09/11         2       2       –         09/13         1       1

 Security Control Review of the
 Visitor Registration System       09/11       10       10       –         07/13         4       6
 (nonpublic report)
 Summary Analysis of Failed        09/11         3       3       –         03/13         2       1
 Bank Reviews
 Evaluation of Prompt
 Regulatory Action                 09/11        1b       1       –           –           –       1
 Implementation
 Audit of the Board’s              11/11         1       1       –         11/12         –       1
 Information Security Program
 Review of RBOPS’ Oversight
 of the Next Generation            01/12         2       2       –           –           –       2
 $100 Note




Semiannual Report to Congress | April 1, 2013–September 30, 2013                                      31
     Table 4: OIG Reports to the Board with Recommendations That
     Were Open during the Reporting Perioda (continued)
                                                                               Status of
                                                  Recommendations              recommendations




                                                                               follow-up
                                                                   disagrees




                                                                                           Closed
                                                          Mgmt.

                                                                   Mgmt.
                                                          agrees




                                                                                                    Open
                                         Issue




                                                                               date
                                                                               Last
                                                   No.
       Report title                      date
       Security Control Review of
       the National Remote Access        03/12        8        8      –         09/13         7       1
       Services System (nonpublic
       report)
       Material Loss Review of the       04/12        4        4      –         03/13         3       1
       Bank of the Commonwealth
       Security Control Review of
       the Board’s Public Website        04/12       12      12       –           –           –     12
       (nonpublic report)
       Review of the Unauthorized
       Disclosure of a Confidential
       Staff Draft of the Volcker        07/12        3        3      –           –           –       3
       Rule Notice of Proposed
       Rulemaking
       Security Control Review of
       the Federal Reserve Bank
       of Richmond’s Lotus Notes
       Systems Supporting the            08/12        9        9      –           –           –       9
       Board’s Division of Banking
       Supervision and Regulation
       (nonpublic report)
       Audit of the Small Community      08/12        1        1      –           –           –       1
       Bank Examination Process
       Audit of the Board’s
       Government Travel Card            09/12        4        4      –           –           –       4
       Program
       Audit of the Board’s Actions
       to Analyze Mortgage               09/12        2        2      –           –           –       2
       Foreclosure Processing Risks
       Security Control Review of
       the Aon Hewitt Employee           09/12        8        8      –           –           –       8
       Benefits System (nonpublic
       report)
       2012 Audit of the Board’s         11/12        2        2      –           –           –       2
       Information Security Program
       Security Control Review
       of Contingency Planning
       Controls for the Information      12/12        5        5      –           –           –       5
       Technology General Support
       System (nonpublic report)
       Review of the Failure of Bank     03/13        1        1      –           –           –       1
       of Whitman
       Controls over the Board’s
       Purchase Card Program Can         03/13        3        3      –           –           –       3
       Be Strengthened




     Office of Inspector General
32
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Table 4: OIG Reports to the Board with Recommendations That
Were Open during the Reporting Perioda (continued)
                                                                          Status of
                                            Recommendations               recommendations




                                                                          follow-up
                                                              disagrees




                                                                                      Closed
                                                     Mgmt.

                                                              Mgmt.
                                                     agrees




                                                                                               Open
                                   Issue




                                                                          date
                                                                          Last
                                              No.
 Report title                      date
 Board Should Enhance
 Compliance with Small
 Entity Compliance Guide
 Requirements Contained in         07/13         2       2       –           –           –       2
 the Small Business Regulatory
 Enforcement Fairness Act of
 1996
 Security Control Review of the
 Board’s National Examination      07/13         4       4       –           –           –       4
 Database System (nonpublic
 report)
 Security Control Review of a
 Third-party Commercial Data
 Exchange Service Used by the      08/13       11       11       –           –           –     11
 Board’s Division of Banking
 Supervision and Regulation
 (nonpublic report)
 Board Should Strengthen
 Controls over the Handling        08/13         4       4       –           –           –       4
 of the Federal Open Market
 Committee Meeting Minutes
 The Board Can Benefit
 from Implementing an
 Agency-Wide Process for           09/13         1       1       –           –           –       1
 Maintaining and Monitoring
 Administrative Internal
 Control
 The Board Should Improve
 Procedures for Preparing for
 and Responding to Emergency 09/13               7       7       –           –           –       7
 Events
  a.	 A recommendation is closed if (1) the corrective action has been taken; (2) the
      recommendation is no longer applicable; or (3) the appropriate oversight
      committee or administrator has determined, after reviewing the position of
      the OIG and division management, that no further action by the agency is
      warranted. A recommendation is open if (1) division management agrees
      with the recommendation and is in the process of taking corrective action
      or (2) division management disagrees with the recommendation and we
      have referred or are referring it to the appropriate oversight committee or
      administrator for a final decision.
  b.	 This recommendation was directed jointly to the OCC, the FDIC, and the
      Board.




Semiannual Report to Congress | April 1, 2013–September 30, 2013                                      33
     Consumer Financial Protection Bureau

     Completed Projects

     The CFPB Should Strengthen Internal Controls for Its
     Government Travel Card Program to Ensure Program
     Integrity
     OIG Report No. 2013-AE-C-017	                                      September 30, 2013

     Our objective for this audit was to determine the effectiveness of
     the CFPB’s internal controls for its GTC program. Specifically,
     we assessed compliance with policies and procedures and whether
     internal controls were designed and operating effectively to prevent
     and detect fraudulent or unauthorized use of travel cards and
     to provide reasonable assurance that cards are properly issued,
     monitored, and closed out.
     Through its GTC program, the CFPB provides its employees with
     the necessary resources to arrange and pay for official business travel
     and other travel-related expenses and to receive reimbursements
     for authorized expenses. The CFPB’s Travel and Relocation
     Office within the Office of the Chief Financial Officer oversees
     the GTC program. In fiscal year 2012, the CFPB spent more than
     $10 million, or about 3 percent of its incurred expenses, on travel.
     As of April 30, 2013, the CFPB had 743 active cardholder accounts.
     We found that internal controls for the CFPB GTC program
     should be strengthened to ensure program integrity. While controls
     over the GTC issuance process were designed and operating
     effectively, controls are not designed or operating effectively to
     (1) prevent and detect fraudulent or unauthorized use of GTCs and
     (2) provide reasonable assurance that cards are properly monitored
     and closed out. Specifically, the OIG found the following:
        •	 Cardholders charged approximately $1,880 in unauthorized
           transactions on their GTCs.
        •	 Cardholders claimed and received reimbursement for $320 in
           unallowable laundry and dry-cleaning transactions and $324 in
           potentially unallowable transactions for lodging and meals and
           incidental expenses.




     Office of Inspector General
34
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
  •	 The Travel and Relocation Office did not ensure that
     cardholders could not exceed their daily cash-advance limit.
  •	 The Travel and Relocation Office did not ensure that GTC
     accounts for separated employees were closed in a timely
     manner.
  •	 The Travel and Relocation Office did not approve travel
     vouchers in a timely manner and send past-due account
     notifications to cardholders, their supervisors, the Chief
     Financial Officer, and the Office of Human Capital, as
     appropriate.
  •	 The Travel and Relocation Office, cardholders, and cardholders’
     supervisors did not properly submit or approve Travel Approval
     Forms and travel authorizations.
The results of our findings based on sample testing cannot be
projected to the entire population because we did not use statistical
sampling. Total noncompliance may be greater than our results
indicate.
We made 14 recommendations designed to assist the CFPB
in strengthening its internal controls over the GTC program.
Management concurred with our recommendations and is planning
to take actions to implement them.


Opportunities Exist for the CFPB to Strengthen
Compliance with Its Purchase Card Policies and
Procedures
OIG Report No. 2013-AE-C-015	                                      September 30, 2013

The OIG conducted an audit to assess whether the controls for the
CFPB’s purchase card program were adequate to (1) ensure that
purchase card use is appropriate and in compliance with applicable
laws, regulations, and the CFPB’s policies and procedures and
(2) prevent and detect improper or fraudulent use of purchase cards.
To streamline the acquisition process for qualifying purchases,
the CFPB participates in the General Services Administration’s
SmartPay2 program through a task order with Treasury’s master
contract with Citibank. Within Treasury, the Bureau of Public
Debt’s Administrative Resource Center provides purchase card




Semiannual Report to Congress | April 1, 2013–September 30, 2013                        35
     administrative services and acts as the liaison between the CFPB
     and Citibank. The CFPB is operating under the Bureau of
     Public Debt’s 2011 Government Purchase Card Procedures and the
     CFPB’s Purchase Card Guides for the Mobile Workforce and Flagship
     Cardholders until internal purchase card policies and procedures are
     finalized.
     We found that internal controls for the CFPB’s purchase card
     program are adequate and operating effectively to ensure that the
     program is generally in compliance with applicable laws, regulations,
     and the CFPB’s policies and procedures and to prevent and
     detect improper or fraudulent use of purchase cards. We did note,
     however, the following instances of noncompliance with applicable
     policies and procedures:
        •	 Cardholders, including some who had separated, were missing
           purchase card files or missing supporting documentation in
           their purchase card files.
        •	 Cardholders paid sales taxes.
        •	 Cardholders did not document the reason for using convenience
           checks, and one cardholder improperly used a convenience
           check instead of a purchase card.
        •	 Cardholders did not document the reason for purchases that
           had the appearance of split transactions.
     We made two recommendations designed to ensure that purchase
     cardholders and agency program coordinators exercise appropriate
     internal controls to ensure the integrity of the purchase card
     program. Management concurred with our recommendations and
     has initiated steps to implement them.


     Opportunities Exist to Enhance the CFPB's Policies,
     Procedures, and Monitoring Activities for Conferences
     OIG Report No. 2013-AE-C-011	                                           August 26, 2013

     We evaluated the CFPB’s management controls, including its
     policies, procedures, and practices, associated with the agency’s
     sponsored and nonsponsored conferences. Additionally, we assessed
     whether the CFPB’s conference expenses and practices followed
     applicable policies and procedures.




     Office of Inspector General
36
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
The CFPB’s Chief Financial Officer formed an internal review
team to assess the CFPB’s compliance with internal controls for
conference-related activities. Subsequently, the CFPB implemented
two conference-related policies in May 2012. The CFPB has four
acquisition approaches through which to coordinate conferences:
the Treasury Departmental Offices, the Bureau of Public
Debt’s Administrative Resource Center, the CFPB’s Office of
Procurement, and the use of purchase cards by CFPB offices.
We found that although the CFPB’s Policy for Conference/Meeting
Planning and Attendance identified roles and responsibilities for
conference coordination and approval, it did not adequately reflect
the CFPB’s current process for conference activities in certain
respects. For example, the policy does not define the individuals
who are authorized to coordinate and approve conferences. In
addition, the policy does not delineate the monetary thresholds used
in selecting between two of the acquisition approaches and does not
mention another of the approaches. In addition, we found that the
policy does not include guidance on the expedited approval process
for training requests that is provided in the CFPB’s Non-Academic
External Training and Education Policy.
We did not identify any material discrepancies in our sample testing
of conference expenses. However, sample testing did show that the
CFPB’s Office of Human Capital has not consistently obtained
conference and training certificates and affidavits from employees
who attend conferences or training as required by the Non-Academic
External Training and Education Policy. Inadequate recordkeeping
and lack of reviews increase the risk that the CFPB could expend
funds for conferences and training that employees do not attend or
complete.
We recommended that the CFPB update its policies and procedures
for conference activities to accurately reflect the agency’s current
processes for conference coordination and approval, periodically
review its conference policies and procedures and update them as
needed, conduct monthly reviews to ensure the receipt of training
certificates and affidavits, and follow up to obtain outstanding
documentation. Management stated that it concurred with the
process improvements included in our recommendations and has
begun implementing specific aspects of the recommendations.




Semiannual Report to Congress | April 1, 2013–September 30, 2013       37
     Work in Progress

     Audit of the CFPB's Information Security Program
     During this reporting period, we began our annual audit of the
     CFPB’s information security program and practices. This audit is
     being performed pursuant to FISMA, which requires each agency
     IG to conduct an annual independent evaluation of the agency’s
     information security program and practices. Our specific audit
     objectives are to evaluate the effectiveness of security controls
     and techniques for selected information systems and to evaluate
     compliance by the CFPB with FISMA and related information
     security policies, procedures, standards, and guidelines provided
     by NIST, OMB, and the Department of Homeland Security. In
     accordance with reporting requirements, our FISMA review
     includes an analysis of the CFPB’s security-related processes in
     the following areas: risk management, continuous monitoring
     management, plan of action and milestones, identity and
     access management, remote access management, configuration
     management, security training, contractor systems, contingency
     planning, incident response and reporting, and security capital
     planning. We expect to complete this project and issue our final
     report in the next reporting period.


     Evaluation of the CFPB's Integration of Enforcement
     Attorneys into Examinations
     We initiated an evaluation of the CFPB’s integration of
     enforcement attorneys into its examinations of banking and
     nonbanking institutions’ compliance with applicable consumer
     protection laws and regulations. Our objectives for this evaluation
     are to assess (1) the potential risks associated with this approach to
     conducting examinations and (2) the effectiveness of any safeguards
     that the CFPB has adopted to mitigate the potential risks associated
     with this examination approach. We expect to complete our review
     and issue our report during the next semiannual reporting period.




     Office of Inspector General
38
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Audit of the CFPB's Cloud Computing Environment
During this reporting period, we began an audit of the CFPB’s
cloud computing environment. We are reviewing actions taken
by the CFPB to implement best practices stipulated in NIST
guidance for implementing and managing cloud computing
technologies. These actions include the CFPB’s processes to select
cloud computing providers and the contract vehicles the CFPB
has in place. The CFPB is also in the process of reevaluating its
current cloud computing environment and associated contracts.
As the CFPB continues to establish its IT infrastructure, we are
also reviewing the procurement processes used to select new cloud
computing providers. Our audit will focus on internal controls and
processes undertaken to ensure that information security controls
are considered in the development process for the new environment.
We expect to complete this project and issue our final report in the
next reporting period.


Audit of a CFPB Cloud Provider
During this reporting period, we began a security control review
of a third-party provider of the CFPB’s cloud environment. Our
objectives are to (1) evaluate the adequacy of certain control
techniques designed to protect data from unauthorized access,
modification, destruction, or disclosure and (2) assess compliance
with the CFPB’s security-related policies and FISMA requirements.
We expect to complete the review and issue our final report during
the next semiannual reporting period.


Evaluation of the CFPB's Compliance with Section 1100G
of the Dodd-Frank Act
We are in the fieldwork stage of an evaluation to assess the CFPB’s
compliance with section 1100G requirements of the Dodd-Frank
Act. Section 1100G amends SBREFA and the Regulatory
Flexibility Act to require the CFPB to assess a proposed rule’s
economic impact and cost of credit for small entities. Among
other requirements, the CFPB must perform a regulatory flexibility
analysis that includes a description of (1) any projected increase in
the cost of credit for small entities, (2) any significant alternatives
to the proposed rule that accomplish the stated objectives of




Semiannual Report to Congress | April 1, 2013–September 30, 2013          39
     applicable statutes and that minimize any increase in the cost of
     credit for small entities, and (3) the advice and recommendations
     of representatives of small entities relating to issues associated with
     the projected increases or alternatives. We expect to complete our
     evaluation during the next semiannual reporting period.


     Evaluation of the CFPB's Annual Budget Process
     We completed our evaluation of the CFPB’s fiscal year 2013 budget
     formulation process and plan to issue our report before the end of
     the year. As an independent bureau within the Federal Reserve
     System, the CFPB is funded by the Federal Reserve System in
     amounts determined by the CFPB Director as necessary to carry
     out the agency’s operations, subject to limits established in the
     Dodd-Frank Act. Our objective for this review was to evaluate
     the extent to which the CFPB’s budget process facilitated the
     achievement of the agency’s goals and performance objectives,
     including transparency to the public.


     Evaluation of the CFPB's Hiring Process
     We initiated an evaluation of the CFPB’s hiring process. The
     objective of our evaluation is to assess the efficiency and
     effectiveness of three CFPB recruitment and selection subprocesses:
     (1) personnel assessment methodology and vacancy announcement
     creation, (2) hiring authority and vacancy announcement posting,
     and (3) evaluation and selection of candidates. We will also
     assess the agency’s compliance with applicable laws, regulations,
     and policies and its administration of recruitment and selection
     incentives to recruit new employees. We have completed our
     fieldwork and plan to issue our report during the next semiannual
     reporting period.


     Audit of the CFPB's Activities under the Government
     Performance and Results Act
     We initiated an audit of the CFPB’s initiatives under the
     Government Performance and Results Act (GPRA) and the GPRA
     Modernization Act, which are part of a legislative framework to
     instill performance-based management across federal government
     agencies. GPRA requires agencies to establish a management




     Office of Inspector General
40
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
system to set agency goals for program performance and to
measure results against those goals. Agencies must incorporate
the performance management concepts of strategic planning and
performance measurement into their planning and budgeting
processes and issue associated performance plans and reports. The
objectives of this audit are to assess the CFPB’s compliance with
applicable sections of GPRA and the effectiveness of processes that
address GPRA and GPRA Modernization Act requirements. We
have initiated our fieldwork and plan to issue our report during the
next semiannual reporting period.


Development of a Comprehensive Audit Plan of the
CFPB's Programs and Operations
The OIG has initiated a planning effort for audits and evaluations
that includes reviewing aspects of the CFPB’s operations to identify
an audit universe of core functions at the agency, division, and office
levels. Our risk-based planning activities are designed to allow us to
target our independent oversight on those programs and operations
to which we can add value by providing timely products and services
that will produce positive, measurable results. This analysis will
facilitate the scheduling of projects to be undertaken in 2014 and
the development of a multiyear general plan for subsequent
planning years.


Audit of the CFPB's Civil Penalty Fund
We initiated an audit of the CFPB’s Civil Penalty Fund. Our
audit will focus on determining whether the controls surrounding
the eventual use of Civil Penalty Fund monies ensure that the
CFPB is complying with applicable statutory, regulatory, and other
appropriate criteria. As part of the audit, we are conducting an
initial scoping effort to establish specific objectives, scope, and
methodology. The Dodd-Frank Act established a Civil Penalty
Fund for civil penalties obtained by the CFPB in judicial or
administrative actions (including enforcement actions) under the
federal consumer financial laws. Amounts in the Civil Penalty
Fund are available to the CFPB, without fiscal year limitation, for
payments to the victims of activities for which civil penalties have
been imposed under federal consumer financial law. If victims
cannot be located or such payments are otherwise not practicable,




Semiannual Report to Congress | April 1, 2013–September 30, 2013          41
     the CFPB may use Civil Penalty Fund monies for the purpose of
     consumer education and financial literacy programs. On May 30,
     2013, the CFPB allocated $10.5 million to compensate victims in
     two cases where civil penalties were obtained from July 11, 2011,
     through March 31, 2013, and $13.4 million for consumer education
     and financial literacy programs. While the CFPB made these
     allocations on May 30, 2013, as of August 2013, the agency had not
     paid victims in these cases or contractors to administer consumer
     education and financial literacy programs. We expect to complete
     this audit during the next semiannual reporting period.


     Evaluation of the CFPB's Supervision Program
     We initiated an evaluation of the CFPB’s supervision program for
     large depository institutions and nondepository consumer financial
     service companies. Based on the authority granted by the Dodd-
     Frank Act, the CFPB began examinations of large depository
     institutions on July 21, 2011, and of nondepository consumer
     financial service companies on January 5, 2012. The objectives of
     our evaluation are to (1) review key program elements, including
     policies and procedures, examination guidance, and controls to
     promote consistent and timely reporting; (2) assess the approach
     for staffing examinations; and (3) assess the training program
     for examination staff. We are in the process of completing our
     fieldwork and plan to issue our report during the next semiannual
     reporting period.


     Response to a Congressional Request Regarding the
     CFPB's Compliance with Federal Requirements for
     Addressing Climate Change
     We received a letter from the co-chairs of the Bicameral Task
     Force on Climate Change regarding actions taken in response to
     climate change by the agencies that we oversee. As the independent
     oversight entity for the CFPB, we provided an initial reply to
     the task force during this reporting period, noting that we had
     requested that the CFPB’s General Counsel determine the federal
     requirements that apply as well as the CFPB’s authorities to reduce
     emissions of heat-trapping pollution. We have completed our
     assessment of the CFPB’s response and will issue a final response
     during the next reporting period.




     Office of Inspector General
42
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Table 5: Audit, Inspection, and Evaluation Reports Issued to the
CFPB during the Reporting Period
 Title                                                                  Type of report
 Program audits, inspections, and evaluations
   Opportunities Exist to Enhance the CFPB’s Policies, Procedures,      Evaluation
   and Monitoring Activities for Conferences
   The CFPB Should Strengthen Internal Controls for Its                 Audit
   Government Travel Card Program to Ensure Program Integrity
   Opportunities Exist for the CFPB to Strengthen Compliance with       Audit
   Its Purchase Card Policies and Procedures
  Total number of audit reports: 2
  Total number of inspection and evaluation reports: 1



Table 6: Audit, Inspection, and Evaluation Reports Issued to the
CFPB with Questioned Costs during the Reporting Perioda
 Reports                                                     Number       Dollar value
 For which no management decision had been made            	0             	$0
 by the commencement of the reporting period
 That were issued during the reporting period              	0             	$0
  For which a management decision was made during          	0             	$0
 the reporting period
   (i)	 dollar value of recommendations that were          	0             	$0
        agreed to by management
   (ii)	dollar value of recommendations that were not      	0             	$0
        agreed to by management
 For which no management decision had been made            	0             	$0
 by the end of the reporting period
 For which no management decision was made within          	0             	$0
 six months of issuance
  a.	 Because the CFPB is primarily a regulatory and policymaking agency, our
      recommendations typically focus on program effectiveness and efficiency,
      as well as strengthening internal controls. As such, the monetary benefit
      associated with their implementation typically is not readily quantifiable.




Semiannual Report to Congress | April 1, 2013–September 30, 2013                         43
     Table 7: Audit, Inspection, and Evaluation Reports Issued to the
     CFPB with Recommendations That Funds Be Put to Better Use
     during the Reporting Perioda
       Reports                                                     Number         Dollar value
       For which no management decision had been made           	0                	$0
       by the commencement of the reporting period
       That were issued during the reporting period             	0                	$0
       For which a management decision was made during          	0                	$0
       the reporting period
         (i)	 dollar value of recommendations that were         	0                	$0
              agreed to by management
         (ii)	dollar value of recommendations that were not
              agreed to by management                           	0                	$0

       For which no management decision had been made           	0                	$0
       by the end of the reporting period
       For which no management decision was made within         	0                	$0
       six months of issuance
        a.	 See note to table 6.




     Office of Inspector General
44
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Table 8: OIG Reports to the CFPB with Recommendations That Were
Open during the Reporting Perioda
                                                                          Status of
                                            Recommendations               recommendations




                                                                          follow-up
                                                              disagrees




                                                                                      Closed
                                                     Mgmt.

                                                              Mgmt.
                                                     agrees




                                                                                               Open
                                   Issue




                                                                          date
                                                                          Last
                                              No.
 Report title                      date
 Evaluation of the Consumer
 Financial Protection Bureau’s     09/12         5       5       –         08/13         3       2
 Consumer Response Unit
 2012 Audit of the Consumer
 Financial Protection Bureau’s     11/12         3       3       –           –           –       3
 Information Security Program
 Security Control Review
 of the Consumer Financial
 Protection Bureau’s Consumer      03/13         9       9       –           –           –       9
 Response System (nonpublic
 report)
 CFPB Contract Solicitation
 and Selection Processes
 Facilitate FAR Compliance,        03/13         3       3       –           –           –       3
 but Opportunities Exist to
 Strengthen Internal Controls
 Opportunities Exist to
 Enhance the CFPB’s Policies,      08/13         4       4       –           –           –       4
 Procedures, and Monitoring
 Activities for Conferences
 The CFPB Should Strengthen
 Internal Controls for Its
 Government Travel Card            09/13       14       14       –           –           –     14
 Program to Ensure Program
 Integrity
 Opportunities Exist for
 the CFPB to Strengthen            09/13         2       2       –           –           –       2
 Compliance with Its Purchase
 Card Policies and Procedures
  a.	 A recommendation is closed if (1) the corrective action has been taken; (2) the
      recommendation is no longer applicable; or (3) the appropriate oversight
      committee or administrator has determined, after reviewing the position of
      the OIG and division management, that no further action by the agency is
      warranted. A recommendation is open if (1) division management agrees
      with the recommendation and is in the process of taking corrective action
      or (2) division management disagrees with the recommendation and we
      have referred or are referring it to the appropriate oversight committee or
      administrator for a final decision.




Semiannual Report to Congress | April 1, 2013–September 30, 2013                                      45
Failed State Member
Bank Reviews
Material Loss Reviews
Section 38(k) of the FDI Act requires that the IG of the
appropriate federal banking agency complete a review of the
agency’s supervision of a failed institution and issue a report within
six months of notification from the FDIC OIG when the projected
loss to the DIF is material. Under section 38(k) of the FDI Act, a
material loss to the DIF is defined as an estimated loss in excess of
$150 million for the period January 1, 2012, through December 31,
2013.
The material loss review provisions of section 38(k) require that the
IG do the following:
  •	 review the institution’s supervision, including the agency’s
     implementation of prompt corrective action
  •	 ascertain why the institution’s problems resulted in a material
     loss to the DIF
  •	 make recommendations for preventing any such loss in the
     future
We did not conduct any material loss reviews during this reporting
period.



Nonmaterial Loss Reviews
The FDI Act, as amended by the Dodd-Frank Act, requires the IG
of the appropriate federal banking agency to report, on a semiannual
basis, certain information on financial institutions that incurred
nonmaterial losses to the DIF and that failed during the respective
six-month period.




Semiannual Report to Congress | April 1, 2013–September 30, 2013         47
     When bank failures result in nonmaterial losses to the DIF, the IG
     is required to determine (1) the grounds identified by the federal
     banking agency or the state bank supervisor for appointing the
     FDIC as receiver and (2) whether the losses to the DIF present
     unusual circumstances that would warrant an in-depth review.
     Generally, the in-depth review process is the same as that for
     material loss reviews, but in-depth reviews are not subject to the
     six-month reporting deadline.
     The IG must semiannually report the dates when each such
     review and report will be completed. If an in-depth review is not
     warranted, the IG is required to provide an explanation of this
     determination. In general, we consider a loss to the DIF to present
     unusual circumstances if the conditions associated with the bank’s
     deterioration, ultimate closure, and supervision were not addressed
     in any of our prior bank failure reports or involved potentially
     fraudulent activity.
     During this reporting period, we continued our in-depth review
     of the failure of Waccamaw Bank. In addition, one state member
     bank failed; the loss to the DIF associated with this failure was
     not material, and we determined that an in-depth review was not
     warranted.


     In-Depth Review of the Failure of Waccamaw Bank
     On June 8, 2012, the North Carolina Office of the Commissioner
     of Banks closed Waccamaw Bank and appointed the FDIC as
     receiver. According to the FDIC’s press release, as of March 31,
     2012, Waccamaw Bank had approximately $533.1 million in total
     assets and $472.7 million in total deposits. On June 8, 2012, the
     FDIC estimated that the cost to the DIF of Waccamaw Bank’s
     closure will be $51.1 million, which did not meet the materiality
     threshold as defined under section 38(k) of the FDI Act. Based
     on the results of its failed bank review, the OIG determined that
     the failure of Waccamaw Bank was due to circumstances that
     have been covered in past OIG reports. However, the failed bank
     review also identified three unusual circumstances that warranted
     an in-depth review of Waccamaw Bank: (1) Waccamaw Bank
     appears to have misinformed regulators about key aspects of an
     asset swap transaction that significantly changed its risk profile
     and financial condition; (2) Waccamaw Bank initiated a series of




     Office of Inspector General
48
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
appeals related to the examiners’ recommended regulatory capital
treatment of a transaction, which ultimately reached the highest
level of appellate review by a Board Governor; and (3) there were
unique circumstances surrounding the retirement of Waccamaw
Bank’s former president and chief executive officer. As a result, we
initiated an in-depth review that focuses on these three unusual
circumstances. We plan to issue our report during the next
semiannual reporting period.


Nonmaterial Losses Not Warranting an In-Depth Review
During this semiannual period, there was one failed state member
bank with losses to the DIF that did not meet the materiality
threshold requiring an OIG review. We determined that the
circumstances of this bank failure did not warrant an in-depth
review.

Table 9: Nonmaterial State Member Bank Failure during the
Reporting Period
     State member bank




                                      Asset size (millions)




                                                                                                                                 OIG determination
                                                                                                     state’s grounds for
                                                              DIF projected loss




                                                                                                     OIG summary of
                                                                                      Closure date




                                                                                                     receivership
                                                              (millions)
                           Location




                                                                                                     Unsafe                Circumstances
 Gold                    Gold                                                                        and                   did not warrant
 Canyon                  Canyon,      $45.2                    $11.2               04/05/2013        unsound               an in-depth
 Bank                    AZ                                                                          condition             review




Semiannual Report to Congress | April 1, 2013–September 30, 2013                                                                                     49
     Follow-Up on Open Recommendations
     We completed a follow-up review of the actions taken on open
     recommendations in our material loss and in-depth reviews from
     2011 and 2012. Three reports contained a total of four open
     recommendations:
        •	 Summary Analysis of Failed Bank Reviews (2011)—
           one open recommendation
        •	 Review of the Failure of Pierce Commercial Bank (2011)—
           two open recommendations
        •	 Material Loss Review of the Bank of the Commonwealth (2012)—
           one open recommendation
     Based on our follow-up work, we determined that sufficient action
     had been taken to close one of the two recommendations from
     the Pierce Commercial Bank report. For this recommendation,
     we found that BS&R updated the Commercial Bank Examination
     Manual to cross-reference several components of guidance to assist
     examiners in identifying the risks associated with secondary-market
     asset sales. As a result, we closed recommendation 2 from this
     report.
     BS&R has initiated actions to address the remaining three open
     recommendations from these reports. We plan to continue our
     review of follow-up actions during the next semiannual reporting
     period.




     Office of Inspector General
50
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Investigations
The OIG’s Office of Investigations conducts criminal, civil, and
administrative investigations related to Board and CFPB programs
and operations. The OIG operates under statutory law enforcement
authority granted by the U.S. Attorney General, which vests our
special agents with the authority to carry firearms, make arrests
without a warrant, seek and execute search and arrest warrants, and
seize evidence. OIG investigations are conducted in compliance
with CIGIE’s Quality Standards for Investigations.


Former Senior Executives of the Bank of the
Commonwealth Sentenced to 17 Years and 8 Years,
Respectively, in Prison for Bank Fraud; Real Estate
Developer Sentenced to 50 Months
On May 24, 2013, after a 10-week trial, a former vice president and
chief lending officer of the Bank of the Commonwealth, another
former vice president, and a favored borrower who was a commercial
real estate developer were convicted by a federal jury in the Eastern
District of Virginia in Norfolk, Virginia. They were found guilty of
masking nonperforming assets at the Bank of the Commonwealth,
a state member bank, for their own personal benefit and to the
detriment of the bank. This long-running scheme contributed to
the failure of the bank in 2011, costing the FDIC an estimated
$333 million.1
According to the evidence presented at trial, in 2006, leaders at the
Bank of the Commonwealth began an aggressive expansion to take
the bank beyond its traditional focus area of Norfolk and Virginia
Beach, to include branches in northeastern North Carolina and
the Outer Banks. By December 2009, the bank’s assets reached
approximately $1.3 billion. These assets were built largely through
brokered deposits.
Evidence showed that many of the bank’s loans were funded and
administered without regard to industry standards or the bank’s

 1.	 For more information, see Office of Inspector General, Material Loss Review
     of the Bank of the Commonwealth, April 2012, http://www.federalreserve.gov/
     oig/files/Material_Loss_Review_BOC_April2012.pdf.




Semiannual Report to Congress | April 1, 2013–September 30, 2013                   51
     own internal controls. By 2008, the volume of the bank’s troubled
     loans and foreclosed real estate soared. From 2008 through 2011,
     bank insiders masked the bank’s true financial condition out of fear
     that the bank’s declining health would negatively impact investor
     and customer confidence and affect the bank’s ability to accept and
     renew brokered deposits.
     To fraudulently hide the bank’s troubled assets, bank executives
     overdrew demand deposit accounts to make loan payments and used
     funds from related entities, often without authorization from the
     borrower. They also changed the terms of the loans to make loans
     appear current and extended new loans or additional principal on
     existing loans to cover payment shortfalls.
     In November 2008, the Bank of the Commonwealth submitted to
     the Federal Reserve System an application requesting approximately
     $28 million from the Troubled Asset Relief Program (TARP).
     Based on the concerns of the bank’s regulator about the health of
     the bank, the Federal Reserve System later requested that the bank
     withdraw its TARP application, which it did.
     From 2008 up to its closing in 2011, the Bank of the
     Commonwealth lost nearly $115 million. The bank’s failure
     resulted in an estimated $333 million loss to the DIF.
     On September 16, 2013, the former vice president and chief lending
     officer of the Bank of the Commonwealth was sentenced to 17 years
     in prison for conspiracy to commit bank fraud, false entries in
     bank records, misapplication of bank funds, and false statement
     to a financial institution. Further, the court ordered the former
     vice president and chief lending officer to pay $331.9 million in
     restitution to the FDIC and to forfeit $61.6 million in proceeds
     from the offense.
     On September 18, 2013, the commercial real estate developer was
     sentenced to 50 months in prison for conspiracy to commit bank
     fraud, bank fraud, false statements to a financial institution, and
     aiding and abetting misapplication of bank funds. Further, the
     court ordered the commercial real estate developer to pay nearly
     $5 million in restitution to the FDIC and to forfeit $11.1 million in
     proceeds from the offense.
     On September 30, 2013, the other former vice president was
     sentenced to 8 years in prison for conspiracy to commit bank fraud,




     Office of Inspector General
52
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
false entries in bank records, misapplication of bank funds, and false
statement to a financial institution. Further, the court ordered the
former vice president to pay $2.4 million in restitution to the FDIC
and to forfeit $4.1 million in proceeds from the offense.
This investigation is being worked jointly by the Federal Bureau of
Investigation (FBI), the FDIC OIG, the Internal Revenue Service–
Criminal Investigation Division, SIGTARP, and the Board-CFPB
OIG. The case is being prosecuted by the U.S. Attorney’s Office for
the Eastern District of Virginia.


Wilmington Trust Corporation Executive Enters Plea
Agreement to Conspiracy to Commit Bank Fraud
This case was initiated based on a request by the U.S. Attorney’s
Office of Delaware regarding allegations that the board of
directors at the Wilmington Trust Corporation (WTC), a Federal
Reserve–regulated institution, may have made false Call Report
entries.2 The alleged false entries affected the Allowance for Loan
and Lease Losses provisions and ultimately impaired WTC’s
capital position. WTC’s commercial loan portfolio sustained over
$1 billion in losses. Additionally, WTC had applied to Treasury for
$330 million in TARP funds under the Capital Purchase Program.
On October 29, 2008, the Federal Reserve Bank of Philadelphia
approved WTC’s request for TARP funds, and WTC received the
funds in December 2008. Subsequently, SIGTARP discovered that
WTC had not repaid dividends to Treasury, and SIGTARP opened
an investigation into WTC’s deteriorating loan portfolio. In March
2010, WTC completed a public offering of $13.25 per share to
raise additional capital. In November 2010, WTC was acquired by
M&T Bank Corporation for $3.84 per share.
On April 10, 2013, a former vice president/division manager of
the Delaware Commercial Real Estate Division of WTC, entered
a guilty plea agreement with the U.S. Attorney for the District of
Delaware, for conspiracy to commit bank fraud. The former vice
president/division manager conspired to extend credit to WTC
customers under terms that were either inconsistent with those

 2.	 Reports of Condition and Income are commonly known as Call Reports.
     Every state member bank is required to file a consolidated Call Report
     normally as of the close of business on the last calendar day of each calendar
     quarter, which is the report date.




Semiannual Report to Congress | April 1, 2013–September 30, 2013                      53
     approved by the Bank Loan Committee or would not have been
     approved had they been presented to the Bank Loan Committee.
     Additionally, the former vice president/division manager further
     conspired to conceal the true financial condition of the bank, in part
     by extending new loans to clients to enable these clients to keep
     existing loans current and by causing the bank to misrepresent its
     reporting of past-due and nonperforming loans.
     The case was investigated by the FBI, the Internal Revenue
     Service–Criminal Investigation Division, SIGTARP, the Board-
     CFPB OIG, and the U.S. Attorney’s Office of Delaware.


     Coastal Community Bank Executives and Attorney
     Charged with Conspiracy, Wire Fraud, False Statements,
     and Making a False Claim against the United States
     On August 6, 2013, the chairman/chief executive officer and the
     chief financial officer of Coastal Community Bank as well as an
     attorney were charged by a federal grand jury in the Northern
     District of Florida with one count of conspiracy to commit wire
     fraud against the FDIC, seven counts of wire fraud, three counts
     of making false statements to the FDIC, and one count of aiding
     and abetting a false claim against the United States. A sealed
     indictment was returned by the federal grand jury on July 9, 2013,
     and it was unsealed on August 6, 2013.
     The indictment alleges that Coastal Community Investments (CCI)
     was a Federal Reserve–regulated bank holding company that owned
     Coastal Community Bank, based in Panama City Beach, Florida,
     and Bayside Savings Bank, based in Port St. Joe, Florida. Coastal
     Community Bank and Bayside Savings Bank both failed on July 30,
     2010.
     The fraud alleged in the indictment involved the FDIC’s
     Temporary Liquidity Guarantee Program (TLGP), which was
     created in October 2008, at the height of the financial crisis. The
     purpose of the TLGP was to encourage banks to begin lending to
     one another again and, thereby, help stabilize the economy. To do
     this, the TLGP provided that the FDIC would guarantee a loan
     made by one financial institution to another financial institution
     in an amount up to 125 percent of the borrower’s existing senior




     Office of Inspector General
54
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
unsecured debt, thus assuring repayment to the lender by the
borrower or, in the event of default, by the FDIC.
The indictment further alleges that in October 2008, CCI had a
$3 million loan with RBC Bank (USA) (RBC), which was secured
by 100 percent of the stock of Coastal Community Bank and
Bayside Savings Bank. At that time, the RBC loan was in default,
thus giving RBC the ability to exercise its right to take the pledged
stock and potentially rendering the defendants’ shares in CCI
worthless. The indictment alleges that under pressure from RBC to
repay this debt, the defendants falsely certified to the FDIC that the
RBC loan was unsecured, knowing that it was secured, so that CCI
could obtain an FDIC-guaranteed loan under the TLGP.
The indictment further alleges that CCI obtained a nearly
$3.8 million loan (125 percent of the RBC loan) from central
Florida–based CenterState Bank, which, based on the defendants’
misrepresentations, was guaranteed by the FDIC under the TLGP.
CCI used the proceeds of this loan to repay the RBC loan. In
June 2010, CCI defaulted on this nearly $3.8 million loan, and on
August 7, 2010, CenterState Bank filed a claim with the FDIC
for payment of the full amount due, plus interest. The FDIC paid
CenterState’s claim on August 13, 2010, by wiring $3.8 million in
principal and interest from the FDIC to CenterState.
Finally, the indictment alleges that one executive, desiring to
avoid losses to himself and his family as CCI’s financial condition
deteriorated, fraudulently sold and converted CCI stock owned
by him and his family members to unwitting investors by
misrepresenting the nature of the stock and CCI’s financial
condition and by providing loans from Coastal Community Bank to
finance the purchases of CCI stock.
This case is the result of a joint investigation conducted by the
Board-CFPB OIG, the FBI, the FDIC OIG, SIGTARP, and the
U.S. Attorney’s Office. The case is being prosecuted by the U.S.
Attorney’s Office for the Northern District of Florida.




Semiannual Report to Congress | April 1, 2013–September 30, 2013         55
     Former Bank President and Other Officers Indicted
     in Massive Fraud That Preceded the Collapse of First
     National Bank of Savannah
     On August 7, 2013, the former president and six other officers of
     First National Bank of Savannah were indicted by a federal grand
     jury, accused of defrauding First National Bank of Savannah and
     other banks out of millions of dollars. The long-running scheme
     allegedly contributed to the failure of First National Bank of
     Savannah in 2010, which will result in a loss to the DIF of over
     $90 million. The Board-CFPB OIG initiated this investigation
     based on a referral by the FDIC OIG. First National Bank
     of Savannah was a wholly owned subsidiary of First National
     Corporation, a Federal Reserve–regulated bank holding company.
     According to the allegations in the indictment, as the bank’s
     financial condition began to deteriorate, the defendants schemed to
     hide from the bank, from members of the bank’s board of directors,
     and from federal regulators millions of dollars in nonperforming
     loans. The defendants accomplished the scheme by unlawfully
     lending money to unqualified nominees to make interest and other
     payments on other nonperforming loans; enticing others to take
     over nonperforming loans with hidden promises, side deals, and
     other terms unfavorable to the bank; and recruiting other banks to
     fund nonperforming loans based on fraudulent misrepresentations
     about the quality of the loans.
     To assist in their scheme, the defendants falsified and fabricated
     numerous bank documents and records through the Federal
     Reserve–regulated bank holding company. The scheme involved
     loans that required approval from several bank executives who held
     positions at the underlying bank and the bank holding company. 
     These transactions flowed through the bank holding company and
     resulted in material misrepresentations to the Call Report and the
     FRY9SP Bank Holding Company Inspection Report.3



       3.	 The FRY9SP Bank Holding Company Inspection Report collects basic
           financial data from small domestic bank holding companies and savings
           and loan holding companies on a parent-only basis in the form of a balance
           sheet, an income statement, and a schedule for certain memorandum items.
           The information is used to assess and monitor the financial condition of
           parent bank holding companies and savings and loan holding companies.




     Office of Inspector General
56
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
This case is the result of a joint investigation conducted by the
Board-CFPB OIG, the FDIC OIG, the Treasury OIG, the U.S.
Secret Service, and the U.S. Attorney’s Office. The case is being
prosecuted by the U.S. Attorney’s Office for the Southern District
of Georgia.


Bank Chairman Pleads Guilty to Making a Material
Misstatement Concerning the Use of TARP Funds
On August 26, 2013, the chairman, president, and majority
shareholder of Calvert Financial Corporation (CFC), which is a
Federal Reserve–regulated bank holding company for Mainstreet
Bank, entered into a plea agreement with the U.S. Attorney’s Office
for the Western District of Missouri. The chairman, who also
serves as the chairman and chief financial officer of Mainstreet
Bank, pleaded guilty to an information in federal court charging
him with one count of making a false writing in violation of
18 U.S.C. § 1018.
According to the plea agreement, in November 2008, CFC
applied to receive TARP funds. In January 2009, CFC received
approximately $1 million in TARP funds. The chairman, as
the duly authorized senior executive officer of CFC, signed all
transaction documents related to the acquisition of these TARP
funds. On February 2, 2009, the chairman used $381,487 of the
TARP funds to purchase a luxury condominium in Fort Myers,
Florida. The chairman purchased the condominium through a
transfer of funds and executed all transaction documents for the
purchase.
As part of its duty to supervise, audit, and investigate institutions
that receive TARP funds, SIGTARP is required to annually submit
to Congress a report detailing the use of TARP funds by institutions
that received such funds. Accordingly, SIGTARP transmitted
letters to various financial institutions, including CFC, seeking
specific information as to how TARP funds were used by the
institution.
In a February 10, 2009, letter of response to SIGTARP’s use-
of-funds inquiry, the chairman of CFC failed to disclose that
a significant portion of the TARP funds allocated to CFC had
been used to acquire the condominium. According to the plea




Semiannual Report to Congress | April 1, 2013–September 30, 2013        57
     agreement, the failure by the chairman to disclose the purchase of
     the condominium was a material misrepresentation of facts relating
     to the true use of TARP funds by CFC.
     As part of the plea agreement, the chairman agreed to enter
     into a consent order of removal and prohibition with the Board
     in which he agrees not to become or to continue serving as
     an officer, director, employee, or institution-affiliated party, as
     defined in 12 U.S.C. § 1813(u), or participate in any manner in
     the conduct of the affairs of any institution or agency specified
     in 12 U.S.C. § 1818(e)(7)(A) without the prior approval of the
     appropriate federal financial institution regulatory agency.
     This is a joint investigation by the FBI, SIGTARP, and the Board-
     CFPB OIG. This case is being prosecuted by the U.S. Attorney’s
     Office for the Western District of Missouri.




     Office of Inspector General
58
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Table 10: Summary Statistics on Investigations during the
Reporting Perioda
 Investigative actions                                                  Number
 Investigative caseload
   Investigations open at end of previous reporting period                        54
   Investigations opened during the reporting period                              11
   Investigations closed during the reporting period                              6
   Investigations open at end of the period                                       59
 Investigative results for the reporting period
   Referred to prosecutor                                                         12
   Joint investigations                                                           38
   Referred to audit                                                              0
   Referred for administrative action                                             0
   Oral and/or written reprimands                                                 0
   Terminations of employment                                                     2
   Arrests                                                                        1
   Suspensions                                                                    0
   Debarments                                                                     0
   Indictments                                                                    11
   Criminal information                                                           1
   Convictions                                                                    9
   Monetary recoveries                                                            $0
   Civil actions                                                                  $0
   Criminal fines, restitution, and forfeiture                       $341,758,970
   Asset forfeiture                                                    $86,665,447
  a.	 Some of the investigative numbers may include data also captured by other
      OIGs.




Semiannual Report to Congress | April 1, 2013–September 30, 2013                       59
Hotline
The OIG Hotline serves as a resource for individuals to report
fraud, waste, abuse, or mismanagement related to the programs
or operations of the Board and the CFPB. Hotline staff can be
reached by phone, fax, mail, or e-mail. OIG analysts review all
incoming Hotline communications, research and analyze the issues
raised, and determine how to best address the complaints. During
this reporting period, the Hotline received 491 complaints.
The OIG Hotline continued to receive a significant number of
complaints involving fraudulent e-mail solicitations invoking
the name of the Federal Reserve, the Chairman of the Board of
Governors, and the Governors of the Federal Reserve System.
Hotline staff continue to advise all individuals that these “phishing”
e-mails are solicitations that attempt to obtain the personal or
financial information of the recipient and that neither the Board
nor the Federal Reserve Banks endorse or have any involvement in
them. As appropriate, the OIG may investigate these complaints.
The OIG Hotline continued to receive a number of complaints
from individuals seeking information about or wanting to file
noncriminal consumer complaints against financial institutions.
After analyzing these complaints, Hotline staff typically refer the
complainant to the consumer group of the appropriate federal
regulator for the institution involved, such as the Customer
Assistance Group of the OCC. As appropriate, Hotline staff refer
individuals to the CFPB’s Consumer Response unit for assistance
regarding complaints about credit cards, student loans, mortgages,
and other consumer financial products and services.
As part of the Hotline’s continued outreach efforts, Hotline staff
continue to present information about the OIG and its Hotline to
new employees of the Board and the CFPB and distribute Hotline
magnets to all Board and CFPB employees at their respective
orientation sessions.




Semiannual Report to Congress | April 1, 2013–September 30, 2013         61
     Table 11: Summary Statistics on Hotline Activities during the
     Reporting Period
       Hotline complaints                                                            Number
       Complaints pending from previous reporting period                                       16
       Complaints received during reporting period                                             491
       Total complaints for reporting period                                                   507
       Complaints resolved during reporting period                                             500
       Complaints pending                                                                       7




     Office of Inspector General
62
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
Legal Services
The Legal Services program serves as the independent legal counsel
to the IG and the OIG staff. The Legal Services staff provides
comprehensive legal advice, research, counseling, analysis, and
representation in support of OIG audits, investigations, inspections,
evaluations, and other professional, management, and administrative
functions. This work provides the legal basis for the conclusions,
findings, and recommendations contained in OIG reports.
Moreover, Legal Services keeps the IG and the OIG staff aware of
recent legal developments that may affect the activities of the OIG,
the Board, and the CFPB.
In accordance with section 4(a)(2) of the IG Act, the Legal
Services staff conducts an independent review of newly enacted and
proposed legislation and regulations to determine their potential
effect on the economy and efficiency of the Board’s and the CFPB’s
programs and operations. During this reporting period, Legal
Services reviewed 17 legislative and 7 regulatory items.




Semiannual Report to Congress | April 1, 2013–September 30, 2013        63
Communications and
Coordination
The OIG’s primary mission is to enhance the economy, efficiency,
and effectiveness of Board and CFPB programs and operations, and
we coordinate externally and work internally to achieve our goals
and objectives. Externally, we regularly coordinate with and provide
information to Congress and congressional staff. We also are active
members of the broader IG professional community and promote
collaboration on shared concerns. Internally, we consistently
strive to enhance and maximize efficiency and transparency in our
infrastructure and day-to-day operations. Within the Board, the
CFPB, and the Federal Reserve System, we continue to provide
information about the OIG’s roles and responsibilities. In addition,
we participate in an advisory capacity on various Board work groups.
Highlights of these activities follow.



Congressional Coordination
and Testimony
The OIG communicates and coordinates with various congressional
committees on issues of mutual interest. During the reporting
period, we provided 26 responses to inquiries from congressional
members and staff concerning the Board and the CFPB.



Council of Inspectors General
on Financial Oversight
Consistent with the Dodd-Frank Act, CIGFO is required to meet
at least quarterly to facilitate the sharing of information among the
IGs and to discuss the ongoing work of each IG, with a focus on
concerns that may apply to the broader financial sector and ways to
improve financial oversight. During this reporting period, CIGFO
met on June 24, 2013, and September 23, 2013. The Dodd-Frank
Act authorizes CIGFO, by a majority vote, to convene a working




Semiannual Report to Congress | April 1, 2013–September 30, 2013        65
     group to evaluate the effectiveness and internal operations of FSOC.
     As discussed on page 19, the CIGFO working group concluded its
     work to examine the rules, procedures, and practices established by
     FSOC and its member agencies to designate FMUs as systemically
     important and therefore subject to the requirements of title VIII
     of the Dodd-Frank Act. In addition, the working group made
     inquiries regarding FSOC’s processes to designate payment,
     clearing, and settlement activities conducted by financial institutions
     as systemically important. CIGFO is required to annually issue
     a report that highlights the IGs’ concerns and recommendations,
     as well as issues that may apply to the broader financial sector.
     CIGFO issued its third annual report in July 2013.4



     Council of the Inspectors General on
     Integrity and Efficiency and Inspector
     General Community Involvement
     The IG is a member of CIGIE, which provides a forum for IGs
     from various government agencies to discuss government-wide
     issues and shared concerns. Collectively, the members of CIGIE
     work toward improving government programs and operations. The
     IG also serves as a member of CIGIE’s Legislation Committee
     and Investigations Committee and leads the Information
     Technology Subcommittee of the Legislation Committee. The
     Legislation Committee is the central point of information regarding
     legislative initiatives and congressional activities that may affect
     the community, such as proposed cybersecurity legislation that
     was reviewed during the reporting period. The Investigations
     Committee advises the IG community on issues involving criminal
     investigations, criminal investigations personnel, and establishing
     criminal investigative guidelines. The Associate IG for Legal
     Services serves as the chair of the Council of Counsels to the IG,
     and Legal Services staff attorneys are members of the council. In
     addition, the Associate IG for Information Technology, as the chair
     of the IT Committee of the Federal Audit Executive Council, works


       4.	 Council of Inspectors General on Financial Oversight, Annual Report
           of the Council of Inspectors General on Financial Oversight, July 2013,
           http://www.treasury.gov/about/organizational-structure/ig/OIG%20
           Sorter/2013CIGFOAnnualRpt71813.pdf.




     Office of Inspector General
66
     Board of Governors of the Federal Reserve System | Consumer Financial Protection Bureau
with IT audit staff throughout the IG community and reports to
the CIGIE Audit and IT Committees on common IT audit issues.



Financial Regulatory Coordination
To foster cooperation on issues of mutual interest, the IG
communicates periodically with the IGs from other federal financial
regulatory agencies: the FDIC, Treasury, the National Credit
Union Administration, the Securities and Exchange Commission,
the Farm Credit Administration, the Commodity Futures Trading
Commission, the Pension Benefit Guaranty Corporation, the
Export-Import Bank, and the Federal Housing Finance Agency.
In addition, the Associate IG for Audits and Evaluations and the
Associate IG for Information Technology and their management
staffs meet with their financial regulatory agency OIG counterparts
to discuss various topics, such as bank failure material loss review
best practices, annual plans, and ongoing projects. The OIG also
coordinates with the Government Accountability Office regarding
financial regulatory and other related issues.




Semiannual Report to Congress | April 1, 2013–September 30, 2013       67
Peer Reviews
Government auditing and investigative standards require that
our audit and investigative units each be reviewed by a peer OIG
organization every three years. Section 989C of the Dodd-Frank
Act amended the IG Act to require that OIGs provide in their
semiannual reports to Congress specified information regarding
(1) peer reviews of their respective organizations and (2) peer
reviews they have conducted of other OIGs. The following
information addresses these Dodd-Frank Act requirements.
The last peer review of the OIG’s audit organization was
completed in December 2011 by the Pension Benefit Guaranty
Corporation OIG. We received a peer review rating of pass.
There were no report recommendations, nor were any peer review
recommendations pending from any previous peer reviews of our
audit organization.
On June 9, 2010, the U.S. Attorney General approved the OIG’s
request for statutory law enforcement authority. As a result and
in accordance with Attorney General guidelines, the next peer
review of the Office of Investigations was due three years from the
date of receiving statutory law enforcement authority. This peer
review, conducted by the Railroad Retirement Board OIG, began
on September 30, 2013, and the results will be included in our next
Semiannual Report to Congress.
Copies of peer review reports of our organization are available on
our website:
http://www.federalreserve.gov/oig/peer_review_reports.htm




Semiannual Report to Congress | April 1, 2013–September 30, 2013      69
 Abbreviations
Board	                 Board of Governors of the Federal Reserve System
BS&R	                  Division of Banking Supervision and Regulation
CCAR	                  Comprehensive Capital Analysis and Review
CCI	                   Coastal Community Investments
CFC	                   Calvert Financial Corporation
CFPB	                  Consumer Financial Protection Bureau
CIGFO	                 Council of Inspectors General on Financial Oversight
CIGIE	                 Council of the Inspectors General on Integrity and Efficiency
CLO	                   Congressional Liaison Office
CLO contact list	      Congressional Liaison Office e-mail distribution list
DIF	                   Deposit Insurance Fund
Dodd-Frank Act	        Dodd-Frank Wall Street Reform and Consumer Protection Act
FBI	                   Federal Bureau of Investigation
FDI Act	               Federal Deposit Insurance Act, as amended
FDIC	                  Federal Deposit Insurance Corporation
FFIEC	                 Federal Financial Institutions Examination Council
FISMA	                 Federal Information Security Management Act of 2002
FMFIA	                 Federal Managers’ Financial Integrity Act of 1982
FMU	                   financial market utility
FOMC	                  Federal Open Market Committee
FSOC	                  Financial Stability Oversight Council
GPRA	                  Government Performance and Results Act
GTC	                   government travel card
IG	                    Inspector General
IG Act	                Inspector General Act of 1978, as amended
IT	                    information technology
LEU	                   Law Enforcement Unit
NED	                   National Examination Database
NIST	                  National Institute of Standards and Technology
OCC	                   Office of the Comptroller of the Currency
OIG	                   Office of Inspector General
OMB	                   Office of Management and Budget
OTS	                   Office of Thrift Supervision
RBC	                   RBC Bank (USA)
RBOPS	                 Division of Reserve Bank Operations and Payment Systems
SBREFA	                Small Business Regulatory Enforcement Fairness Act of 1996, as amended
SIGTARP	               Special Inspector General for the Troubled Asset Relief Program
TARP	                  Troubled Asset Relief Program
TLGP	                  Temporary Liquidity Guarantee Program
Treasury	              U.S. Department of the Treasury
WTC	                   Wilmington Trust Corporation




Semiannual Report to Congress | April 1, 2013–September 30, 2013                            71
                     O    I     G    
 •               •
                            B  G   F R S
                                C F P B




HOTLINE
             1-800-827-3340
                     OIGHotline@frb.gov

 Report Fraud, Waste, and Abuse
     Those suspecting possible wrongdoing may contact the
         OIG Hotline by mail, e-mail, fax, or telephone.
Oﬃce of Inspector General, c/o Board of Governors of the Federal Reserve System
20th Street and Constitution Avenue NW, Mail Stop K-300, Washington, DC 20551
                             Attention: OIG Hotline
                              Fax: 202-973-5044

                  Questions about what to report?
             Visit the OIG website at www.federalreserve.gov/oig
                                       or
                        www.consumernance.gov/oig
Office of Inspector General
20th Street and Constitution Avenue, NW
Mail Stop K-300
Washington, DC 20551

Phone:	        202-973-5000
Fax:	          202-973-5044
